<html>
<title> - NO CHILD LEFT BEHIND ACT</title>
<body><pre>[Senate Hearing 108-621]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-621

                        NO CHILD LEFT BEHIND ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

 OVERSIGHT HEARING ON IMPLEMENTATION IN NATIVE AMERICAN COMMUNITIES OF 
                      THE NO CHILD LEFT BEHIND ACT

                               __________

                             JUNE 16, 2004
                             WASHINGTON, DC


                    U.S. GOVERNMENT PRINTING OFFICE
94-491                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Ben, Terry, director of tribal schools, Mississippi Band of 
      Choctaw Indians............................................    31
    Bordeaux, Roger, Superintendent, Tiospa Zina, Tribal School..    26
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Leonard, Leland, director, Division of Dine Education 
      Committee, Navajo Nation...................................    33
    Marburger, Darla, deputy assistant secretary for Policy, 
      Office Elementary and Secondary Education, Department of 
      Education..................................................     4
    Parisan, Edward, director, Office of Indian Education 
      Programs, Department of the Interior.......................     2
    Rosier, Theresa, counselor to the Assistant Secretary, Indian 
      Affairs, Department of the Interior........................     2
    Sparks, Lillian, director, National Indian Education 
      Association................................................    19
    Taylor, Carmen Cornelius, executive director, National Indian 
      School Board Association...................................    22
    Vasques, Victoria, deputy under secretary and director, 
      Office of Indian Education, Department of Education........     4

                                Appendix

Prepared statements:
    Anderson, Dave, assistant secretary, Indian Affairs, 
      Department of the Interior (with attachment)...............    39
    Bordeaux, Roger (with attachments)...........................    43
    Daschle, Hon. Tom, U.S. Senator from South Dakota............    64
    La Marr, Cindy, president, National Indian Education 
      Association................................................    66
    Leonard, Leland..............................................    72
    Martin, Phillip, tribal chief, Mississippi Band of Choctaw 
      Indians....................................................    76
    Taylor, Carmen Cornelius.....................................    78
    Vasques, Victoria............................................    84
Additional material submitted for the record:
    Letter from Jack F. Trope, executive director, Association on 
      American Indian Affairs....................................    86

 
                        NO CHILD LEFT BEHIND ACT

                              ----------                              


                        WEDNESDAY, JUNE 16, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 10:40 
a.m. in room 485, Senate Russell Building, Hon. Ben Nighthorse 
Campbell (chairman of the committee) presiding.
    Present: Senators Campbell, Conrad, and Inouye.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. We are told that we may have a vote any 
minute, but we are going to go ahead and start with our 
oversight hearing on the Indian provisions of the No Child Left 
Behind Act of 2001. This is a law that I authored along with 
Vice Chairman Inouye.
    This law reaffirms the trust relationship and 
responsibility of the United States to educate Indian children. 
That responsibility has been put into action by, first, funding 
increases, most notably as we can see from the draft chart that 
is on my right, and people in the audience may review it from 
where you sit. If you are exiting the room, please also do it 
quietly.
    The school construction funding has increased some 400 
percent from fiscal 1999 to 2003; that is a huge increase and a 
very needed increase for our Indian schools, too. Second, 
President Bush's Executive order on American Indian and Alaska 
Native Education signed on April 30, 2004, seek to ensure the 
highest quality education for our Indian children. With the act 
passed in 2001, Congress established a number of requirements, 
including standards and accountability, flexibility in funding 
sources, and GAO studies for funding and facilities.
    Today, we will hear how these requirements have been 
implemented in Indian Country and any recommendations for 
improvements.
    I will submit my formal and complete statement for the 
record, and tell you that we have gotten unfortunately a lot of 
mail, that I will discuss, lately and calls, too, concerning 
how this new law is being implemented. I will deal with that a 
little bit later during the hearing.
    Now, I would like to turn to my Vice Chairman, Senator 
Inouye, for any opening statement he has.
    Senator Inouye. I would like to ask permission that my 
opening statement be made part of the record.
    The Chairman. Senator Inouye's complete statement will be 
included in the record.
    Now, we will turn to our first panel. That will be Theresa 
Rosier, accompanied by Ed Parisian; and Victoria Vasques, 
accompanied by Darla Marburger.
    With that, if you would like to proceed in that order, Ms. 
Rosier first. You may abbreviate if you like. Your complete 
testimony will be included in the record.
    We are going to keep on going, and Senator Inouye and I 
will spell each other. He will go vote and then come back and 
chair it while I run and vote, so we do not have to take a 
break in the continuity of this meeting. Go ahead and proceed, 
Ms. Rosier.

    STATEMENT OF THERESA ROSIER, COUNSELOR TO THE ASSISTANT 
    SECRETARY, INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR, 
  ACCOMPANIED BY EDWARD PARISIAN, DIRECTOR, OFFICE OF INDIAN 
                       EDUCATION PROGRAMS

    Ms. Rosier. Good morning, Mr. Chairman and Mr. Vice 
Chairman. My name is Theresa Rosier and I am Counselor to the 
Assistant Secretary for Indian Affairs. I am happy to be here 
today to speak on behalf of the Department of the Interior on 
our implementation of the No Child Left Behind Act in the 
Bureau of Indian Affairs [BIA] funded school system.
    I am accompanied today by Edward Parisian, our director of 
the Office of Indian Education Programs.
    President Bush and Secretary Norton are committed to 
ensuring that the almost 48,000 students who attend the Bureau-
funded school system receive a quality education and the 
opportunity to achieve. In fact, the President recently signed 
an Executive order on American Indian and Alaska Native 
education with the purpose of assisting those students in 
achieving the academic and challenging standards set forth in 
the No Child Left Behind Act. The Department is committed to 
working with the Department of Education on implementing this 
important Executive order.
    Assistant Secretary Dave Anderson, who unfortunately could 
not be here today, has also made Indian education a top 
priority. To assist in implementing the No Child Left Behind 
Act, Mr. Anderson has asked the Office of Indian Education 
Programs to explore two innovative concepts that he hopes to 
implement in the Bureau-funded school system.
    First, Mr. Anderson would like to create a Success 101 
curriculum in the classroom. This curriculum would encourage 
student achievement, student leadership, business investment, 
home ownership and personal responsibility. Second, he has 
asked his staff to develop a pilot program to look at 
transforming the mission of one of our Bureau-funded schools 
into a leadership academy. We are currently analyzing how best 
to implement these two programs with our existing authority and 
with our existing funding. This summer, OIEP will consult with 
tribal leaders, educators and community members on these two 
concepts.
    As Senator Campbell discussed, a prerequisite to providing 
a high-quality education is based in structurally sound 
schools. With this in mind, the President has requested and 
secured historic levels of funding for Indian school 
construction. Under his Administration he has requested over 
$1.1 billion for Indian school construction.
    The No Child Left Behind Act is the President's commitment 
that all schools receiving Federal funds will provide students 
with a high-quality education and Bureau-funded students and 
parents can expect that our schools will carry forward this 
vision. Full and successful implementation of the No Child Left 
Behind Act requires a strong partnership between the Department 
of Interior, our Bureau-funded schools and the communities with 
which we serve.
    The No Child Left Behind Act required the Department to 
undertake formal negotiated rulemaking in several areas. We 
have negotiated eight of the nine area so far. In February of 
this year, we published the first six draft regulations. These 
regulations were developed in 5 months with Indian tribal 
leaders and the Federal negotiating team sitting at a table and 
negotiating very complex and difficult matters. These proposed 
regulations were developed through consensus-style 
decisionmaking, meaning that all members of the Federal and 
tribal team had to agree on the final negotiated product.
    The negotiated rulemaking committee reached consensus on 
the first six areas, that of defining adequate yearly progress, 
geographic boundaries, the allotment formula, funding 
distribution, grants administered under the Tribally Controlled 
Schools Act, and student civil rights. The public comment for 
these first six draft regulations ends next week on June 24.
    In February of this year, the committee reconvened and 
negotiated two additional areas, that of school closure and 
consolidation and the national criteria for home-living 
standards. Although consensus was reached on home-living 
standards, which are the standards that govern our boarding 
schools, we did not reach consensus on school closure or 
consolidation. The reason that we did not reach consensus is 
that the Federal and tribal team had differing legal 
interpretations of section 1121(d). After a lot of thoughtful 
deliberation, it became obvious that we would not reach 
consensus on this issue.
    We hope to publish the two regulations on dormitory 
standards and school closure within the next few months. After 
that, the public will have a 120-day comment period. We 
strongly encourage all tribal communities who are concerned 
with the issue of school closure and consolidation to provide 
comments during this 120-day period. Under the Administrative 
Procedures Act, we are required to review each and every 
comment. We have agreed for the first six rules to sit down 
with the tribes and review the comments together. We expect to 
have the same type of meetings for school closure and dormitory 
standards.
    The President's budget also supports implementation of No 
Child Left Behind in the Bureau-funded school system. First, 
the Bureau-funded school system has received significant 
increases from the Department of Education in our flow-through 
funding. Second, the President's 2005 budget reflects a 
$500,000-increase in the Focus Program. The Focus Program 
brings targeted assistance to our lowest-performing schools. 
This program has been very successful. In the schools where it 
has been implemented, four out of the five participating 
schools have improved their student performance.
    Finally, the Office of Indian Education Programs was 
awarded a $30.4 million 6-year grant to focus on reading first 
in our Kindergarten through third grades.
    In conclusion, the No Child Left Behind Act rulemaking 
process provided both the Department and the tribal communities 
an opportunity to reassess our education system. The results 
are a thoughtful work product that addresses incredibly 
difficult issues and that encourages the BIA, both at the 
central office and the Bureau-funded school system and 
individual schools to provide a meaningful educational 
opportunity to the Indian students that we serve.
    That is the conclusion of my testimony and I will be happy 
to answer any questions.
    The Chairman. Thank you.
    Why don't you now proceed, Ms. Vasques.

   STATEMENT OF VICTORIA VASQUES, DEPUTY UNDER SECRETARY AND 
DIRECTOR, OFFICE OF INDIAN EDUCATION, DEPARTMENT OF EDUCATION, 
ACCOMPANIED BY DARLA MARBURGER, DEPUTY ASSISTANT SECRETARY FOR 
       POLICY, OFFICE ELEMENTARY AND SECONDARY EDUCATION

    Ms. Vasques. Thank you, Mr. Chairman, and members of the 
committee. On behalf of Secretary Paige, thank you for this 
opportunity to testify on the implementation of the No Child 
Left Behind Act for American Indian and Alaska Native Children.
    My name is Victoria Vasques. I am the deputy under 
secretary and director of the Office of Indian Education. I am 
here with my colleague Darla Marburger, who is the deputy 
assistant secretary for policy in the Office of Elementary and 
Secondary Education.
    I request that my written statement be entered for the 
record.
    The Chairman. Without objection, your complete statement 
will be in the record.
    Ms. Vasques. Thank you.
    It was in large part our Nation's long and unfortunate 
history of too-often ignoring the educational needs of some 
children that led President Bush to propose his NCLB reforms. 
Ignoring these students is no longer an option for states, 
school districts and schools because under NCLB they are 
responsible for ensuring that Indian and Alaska Native children 
meet the same challenging academic standards that other 
children are expected to meet.
    We also know, however, that there are implementation 
challenges. As you have heard often, Secretary Paige recognizes 
a one-size-fits-all approach will not work. There are 
challenges in areas such as providing school choice for 
children who live in remote and rural areas, assisting schools 
in meeting requirements that they employ highly qualified 
teachers, and determining how Native language immersion 
programs for kids in grades K-three affect assessment 
requirements that begin in third grade.
    However, we are committed to working in consultation with 
all local, State and tribal governments to provide flexibility 
where possible, while ensuring that these and future 
generations of Indian students are not left behind.
    Working with each of you on this committee and with our 
tribal leaders and our Indian organizations, the Department 
wants to build upon the special relationship between the 
Federal Government and our American Indians, and our shared 
commitment to educational excellence and opportunity.
    As you have previously heard from my colleague, the 
President recognized the unique cultural and educational needs 
of these children in his April 30 Executive order on American 
Indian and Alaska Native Education. In particular, the EO 
emphasizes the importance of helping American Indian and Alaska 
Native students meet the challenging academic standards of 
NCLB. I quote, ``in a manner that is consistent with tribal 
traditions, languages and cultures.'' We believe in fact that 
the NCLB Act which combines greater accountability for results 
with flexibility for local school districts and more choices 
for parents provides an excellent framework for meeting the 
goals of the EO for the nearly 500,000 American Indian and 
Alaska Native students that attend our public schools.
    Another important event occurring on that same day was the 
swearing-in of the National Advisory Council on Indian 
Education. These council members were appointed by the 
President and will advise Secretary Paige on the funding and 
administration of all departmental programs that benefit our 
Indian children and our adults.
    According to the most recent data from the NAEP scores, 
only 16 percent of American Indian and Alaska Native fourth 
graders score at or above the proficient level in reading, 
compared to 41 percent of our white students and 31 percent of 
all students. It gets no better by the time they get to eighth 
grade. Only 15 percent are proficient in math and only 17 
percent are proficient in reading. After falling so far behind 
in our early years, it is not surprising that Indian students 
scored 100 points below white students and 60 points below the 
general population on the 2001 SAT.
    Under NCLB, States must ensure that all students, including 
our Indian students, are proficient in reading and math as 
measured against state standards by the 2013-14 school year. We 
know this will not happen overnight, so the law requires each 
State, as well as the BIA, to develop accountability standards 
for reaching this goal. The plans are based on academic 
standards for those core subjects, as well as annual 
assessments based on those standards for all students in grades 
three-eight, and once again in high school. They also include 
annual objectives from improving student performance on those 
assessments, part of the concept that you know as the adequate 
yearly progress.
    A key advance in the new law is the incorporation of sub-
group accountability into AYP standards. This means that the 
performance of schools and school districts is based not just 
on overall student achievement, which can mask significant gaps 
between groups of students, but also on the progress of major 
racial and ethnic sub-groups. The result is a system that will 
hold the BIA, the States, school districts and schools 
specifically accountable for improving the academic achievement 
of American Indian and Alaska Native students.
    All 50 States, Puerto Rico and DC have developed and are 
currently implementing NCLB accountability plans, which include 
both a system of rewards for schools that perform well and a 
system of interventions for schools and districts that are not 
meeting their goals. These accountability plans are critical to 
improving the education of our Indian students because more 
than 90 percent of these students are enrolled in our public 
schools, which are operated by our public school districts and 
are held accountable by the States in which they are located.
    We are confident that the new sub-group accountability 
requirements, coupled with significant increases in funding for 
programs under NCLB, will help close the achievement gap. We 
have no doubt that American Indian students will benefit 
considerably from the $3.6 billion or 41 percent increase in 
the title I grants to LEAs funding since the passage of NCLB in 
2002.
    In addition to the Title I program, the Department of 
Education provides other significant assistance to States and 
school districts that support improved achievement for American 
Indian and Alaska Native students. As Theresa mentioned 
earlier, Secretary Paige announced a 6-year, $30.4 million 
Reading First grant to the Bureau of Indian Affairs [BIA]. This 
major initiative seeks to improve reading achievement using 
scientifically proven instructional methods for Indian children 
in kindergarten through third grade.
    Putting a highly qualified teacher in every classroom is 
also a critical concern for our Indian students. Assistance is 
provided through such programs as our improving Teacher Quality 
State Grants, which is funded at $2.9 billion and includes a 
set-aside of $14.6 million for BIA schools in fiscal year 2004. 
My office will award approximately $10 million to support the 
training of high-quality Indian education personnel through our 
Teacher Corps and our Administrator Corps programs.
    These funds will be used to support the American Indian 
Teacher Corps, which trains Indian individuals at the 
bachelor's degree level or higher to meet full State 
certification or license requirements. These funds will also be 
used to support the American Indian Administrator Corps program 
to train Indian individuals at the master's degree level to 
become new school administrators with full state certification. 
Together, these programs have already trained more than 1,000 
teachers and administrators to date.
    In conclusion, the No Child Left Behind Act demands 
accountability for improving the achievement of all children, 
including our American Indian and Alaska Native students. We 
recognize that the NCLB Act sets high standards, and that 
finding the right mix of accountability and flexibility can be 
a challenge. However, I am sure that the members of this 
committee would agree that few have more to gain from a 
concerted good-faith effort than our American Indian and Alaska 
Native students as we continue to implement NCLB for their 
benefit and the benefit of all of our students.
    In closing, I ask you the same question the President asked 
when he signed the Executive order on April 30 for American 
Indian and Alaska Native Education: How can we work together to 
raise the standards and expect the best?
    Thank you and I will be happy to answer any questions you 
have.
    [Prepared statement of Ms. Vasques appears in appendix.]
    The Chairman. Thank you to both of you for those 
statements.
    I have to tell you, knowing my own childhood, the 
difficulty of our young Indian people getting a proper 
education. It is the most important thing in the world, I will 
tell you that.
    I have a number of questions. I am going to run and vote. 
Senator Inouye will ask his first, and I will come back and 
offer some more. Before I go, I need to tell you that with 
every agency reorganization, there is a lot of movement and 
some consternation at reorganization. I have personally gotten 
a number of complaints, not about the Department of Education, 
but really about the OIEP. Some of those complaints were over 
the phone, some have been in writing, and some of them deal 
with everything you can think of, unfair labor practices, 
forced retirements, targeted ``RIFs,'' hostile work 
environment, nepotism, cronyism, ethics violations, civil 
rights violations, mismanagement of funds and on and on and on.
    I know that what we have been doing in the past has not 
been very good in educating our youngsters or we would not have 
such a high dropout rate. I understand that and I know that we 
have to make some changes. This committee is certainly not 
looking to pick a fight or do a witch hunt or so on, but some 
of the things that have been brought to my attention, I, in 
turn, called Deputy Assistant Secretary Aurene Martin and 
discussed them with her. She assured me that she would look 
into it, but we are still getting complaints.
    In fact, one of the complaints was a letter from a 
gentleman who accused the OIEP of a callous process that 
contributed to the death of his mother when she was fired. 
Another was a letter from an Indian school board that 
encouraged the committee to investigate the reorganization 
policy or lack of it, because in their words, the injustices 
were affecting the children and families living on Indian 
reservations.
    Now, we have no way of knowing if these accusations have 
any merit or not, and maybe they do not. Maybe some are just 
disgruntled employees, but I do not take them lightly. So I did 
discuss this with Senator Inouye, and I think that anything 
that hurts our Indian children and prevents them from being in 
a safe and healthy educational environment is a great distress 
to both of us.
    So this morning, I did direct staff to ask for a GAO 
investigation of how this process is going, whether it is 
objective, fair and impartial, because of the complaints we are 
getting. I just wanted you to know that up front, Ms. Vasques 
and Mr. Parisian, so it would not blind-side you.
    With that, I am going to run and vote. Senator Inouye, if I 
could ask you to chair for a few minutes. I do have questions I 
really want to ask, though, so I will be back in a moment.
    Senator Inouye. Thank you very much.
    I have a question. I was not here for the prior questioning 
so I may be repeating something. I hope not. Last April, the 
President signed an Executive order on American Indian and 
Alaska Native Education. What steps have you taken to begin 
consultation and implementation of this Executive order?
    Ms. Vasques. I am happy to answer that. Vickie Vasques from 
the Department of Education.
    We are charged in that Executive order to implement an 
interagency Federal working group that will work in 
consultation with our tribal leaders and Indian organizations. 
We have just sent letters from Secretary Paige to the 
respective Cabinet members that are listed to designate their 
particular representative. They must be a GS-15 or above.
    In parallel with that so we do not hold up the process, we 
have a staff person on my staff that is already reaching out 
trying to get this group formulated so that we can hopefully by 
the end of this month, our tentative date is June 30, meet with 
the Federal interagency working group and include members of 
our Indian organizations and tribal representatives that can 
join us.
    The President appointed the NACIE board members weeks 
before that, but on that same day they were sworn in by 
Secretary Paige. We are hoping to get them included in that 
process as well, because we are hoping to have the first board 
meeting July 1 and 2.
    The EO also asked for a national conference to be held. We 
would like to discuss that first with the interagency working 
group and the tribal representatives, but we would love to see 
something take place on a national scope and maybe have some 
roundtables or regional sessions throughout Indian Country so 
that all can be included in the process.
    Senator Inouye. I have not heard of any representation from 
the Indian groups.
    Ms. Vasques. They will be actively included in this process 
and we will work in consultation with them. I personally have 
worked hand-in-hand with NIEA, NCAI, AIHEC, AISES and I cannot 
remember the acronym for the Impact Aid School Board, and then 
the Indian School Board as well. It is part of inclusion. If we 
are forgetting anyone, please keep me on my toes.
    Senator Inouye. Do you have any representative from the 
BIA?
    Ms. Vasques. Absolutely. I am sorry, my colleague is 
sitting right next to me. We have worked very closely meeting 
with Ed Parisian from the Office of Indian Education Programs 
monthly, and his staff and my staff, in order to better 
communicate, better collaborate, and hopefully provide better 
technical assistance out in the field and work on implementing 
this Executive order jointly to better serve our Indian 
students.
    Senator Inouye. I am certain you have read the report from 
the National Assessment of Educational Progress.
    Ms. Vasques. Yes.
    Senator Inouye. Are those numbers correct?
    Ms. Vasques. I cannot recall.
    Senator Inouye. It says that only 16 percent of American 
Indians and Alaska Native fourth-graders score at or above the 
proficiency level in reading compared to 41 percent of white 
students and 31 percent of all students.
    Ms. Vasques. Sir, I use a lot of those scores when I go out 
and speak publicly. We know personally as Indian people that we 
do not have a high graduation rate; that we do have a very high 
dropout rate. The NAEP scores that I quote quite often are 
correct, 83 percent of fourth-graders are not proficient in 
reading; 86 percent of fourth-graders are not proficient in 
math. As I said in my testimony, it does not get better when 
they get on into the higher grades. It is even higher in some 
cases; 90 percent in math. So for right now, the NAEP scores 
are the best source that we have.
    One of the other areas I would like to share with you that 
we are looking at is to go out and do an evaluation and 
analytical study so that we can find out first-hand from the 
Indian people where our successes, where our strengths, and 
where our weaknesses are.
    Senator Inouye. Have you had studies in the past with which 
you can compare this newer data?
    Ms. Vasques. There have been studies funded under the 
National Activities Program in the Department. To be honest 
with you, I am not familiar with the outcome of some of those 
studies. They have been done sort of in an independent manner. 
What we have done now is just funded again through the National 
Activities and through a consultative process with our tribal 
folks. It is called the National Indian Education Study. It is 
working in collaboration with our Institute of Education 
Sciences. It will hopefully evaluate and collect data so that 
we can further improve education of our Indian students.
    It is a sampling right now of baseline data on academic 
achievement and retention of our American Indian and Alaska 
Native students. It has a committee that, I cannot use the word 
``advise,'' but they are working hand-in-hand with us to make 
sure that we are including the right schools, the right 
geographic areas in this sampling for this study. There are 
some studies that are in process right now that have not come 
to fruition yet, like the Early Childhood Study does not come 
to fruition I think until 2007.
    But honestly, this 2004 fiscal year we are just ready to 
announce two RFPs to go out and help me with evaluation, 
analytical studies, and the BIA, and to help us go out there 
and provide technical assistance where it is desperately 
needed. We are in the middle of our contract process as we 
speak. I am at their door every morning, saying where is it? 
Where is it? I anticipate those competitions being announced in 
the next week or two. We will go through a competition and we 
hope that American Indian-owned businesses will apply for those 
two contracts.
    Senator Inouye. Thank you very much.
    I would like to ask a question of Ms. Rosier. You have 
discussed the Department's accomplishments in detail, but you 
have not mentioned the feasibility of establishing a tribal 
accreditation agency, which is required by the law. What is the 
status of this feasibility study?
    Ms. Rosier. I would have to get back to you on that. At 
this time, I do not know the answer to that.
    Senator Inouye. There are other reports that are required 
by the No Child Left Behind Act, such as the annual report on 
unaccredited schools. What is the status of these other 
reports?
    Mr. Parisian. Good morning Mr. Chairman, Mr. Vice Chairman. 
On our accreditation report that we have submitted, we have 180 
schools out of the 184 schools; 4 schools that are not 
accredited at this time. They are in the process of 
accreditation and we submit those numbers within that report.
    Senator Inouye. The rest are all accredited?
    Mr. Parisian. The rest are all accredited.
    Senator Inouye. There are many other reports that are 
required by the No Child Left Behind Act, such as the annual 
report on unaccredited institutions. Have you made those 
reports, too?
    Mr. Parisian. The accreditation reports cover both 
accredited and unaccredited; those schools that are in the 
process of working with us to receive accreditation.
    Senator Inouye. I have a question for Director Vasques. You 
mentioned that Secretary Paige announced a $30.4-million 
Reading First grant to the BIA. How much has the Bureau 
received from Reading First prior to the grant?
    Ms. Vasques. The total dollars? It is broken out over a 6-
year period. I will ask a budget person for the Reading First 
amount for fiscal year 2004.
    Senator Inouye. How much did they receive prior to this 
grant?
    Ms. Vasques. This was their first grant award. This is 
their first Reading First grant with funds awarded last year 
and in 2004. The total over 6 years will be $30.4 million.
    Ms. Rosier. We awarded 22 schools this year. It was in 
March of this year, 22 schools were given Reading First grants.
    Ms. Vasques. $5.1 million went for 2004.
    Senator Inouye. Are these grants being used to improve 
proficiency in English or in Native languages?
    Ms. Rosier. It is in English. These grants are for 
promoting reading proficiency in English.
    Senator Inouye. In what?
    Ms. Rosier. In English. These grants are for promoting 
reading proficiency and it is in English. It is not in Native 
languages.
    Senator Inouye. Not in Native languages?
    Ms. Rosier. That is not the purpose of the Reading First 
grants.
    Senator Inouye. What provision does the Department have for 
reconciling the English language requirements of the No Child 
Left Behind Act and the Native American Languages Act?
    Ms. Rosier. Recently in our No Child Left Behind Act 
rulemaking on the funding section, we looked at the current 
bilingual program that the BIA had and we wanted to provide 
more flexibility to schools in our system who would like to 
provide Native languages and cultural development. So that 
awaited comment that we would put in our regulations, which are 
not final yet, but we negotiated with the tribes. All the 
Department asked first is that limited English-proficient 
students were identified and serviced, but after that, the 
weighted unit would be used to provide for Native culture and 
Native languages. It provides a lot more flexibility to the 
school.
    With respect to our current system in the bilingual 
program, I think tribes have to offer Native languages and they 
may not be fully up front. We want them to be able to do this 
and do it proudly. That is why we have flexibility in the 
proposed regulations.
    Senator Inouye. Being more direct, are Native language 
immersion schools given any waiver of the requirement of 
standardized testing in the English language?
    Ms. Marburger. No, sir; they are not. It is important that 
with these students as well as all students we are able to have 
an accurate measure of their achievement of standards and that 
we have that measure annually. So that if a student is not 
learning what they are expected to at each grade level, 
appropriate interventions can be applied so that student does 
not fall behind.
    However, there are several approaches that can be taken in 
assessing these students that are taught in their Native 
language. One of those includes using Native language 
assessments, as well as accommodations in assessing those 
students to help them with taking the tests in a language that 
may not be the Native language, if the state or the school 
chooses to use an assessment that is not written in the Native 
language, as well as alternate assessments that can be 
developed that are given in a more simple manner for those 
students.
    Senator Inouye. In other words, you do not have any 
examination that is conduct, in Native languages?
    Ms. Marburger. It is up to each SEA to develop assessments 
and there is actually a specific budget item that is given to 
the states for assessment development. The SEAs then determine 
how they use those funds to develop assessments in order to 
meet the requirements of No Child Left Behind. So they can 
choose to develop Native language assessments. We have several 
states who have chosen to do that.
    Senator Inouye. But it is not standard?
    Ms. Marburger. Once again, it is up to the discretion of 
the state. They can choose.
    Senator Inouye. So the determination that some of the 
Indian children are not doing well may depend upon taking 
English tests when their first language is a Native language.
    Ms. Marburger. Certainly that may be a possibility, but we 
do not have data to indicate that.
    Senator Inouye. Do you believe that it is happening?
    Ms. Marburger. I do not know.
    Senator Inouye. Do you give any special consideration to 
Native language teachers as to their qualifications for 
teaching? Many of them may not be graduates of teacher 
colleges.
    Ms. Marburger. I am sorry. I did not understand your 
question. Can you repeat it please?
    Senator Inouye. Many of the Native language teachers do not 
have degrees or certificates from universities and colleges. Do 
you give them special consideration to permit them to teach?
    Ms. Marburger. If they are teaching in core content areas, 
they are required to meet the highly qualified teacher 
requirements by the 2005-06 school year. We are working 
directly with our state educational authorities to provide 
technical assistance to them in meeting those requirements. We 
acknowledge that a lot of schools that serve our American 
Indian and Alaska Native students are located in remote areas, 
and recognize the need to use technology to provide distance 
learning to such programs, to help get very specific and 
important training to our professionals that are out in those 
remote areas.
    Senator Inouye. Do you give any special consideration for 
Native language teachers as to their qualifications for 
teaching? I gather that some do not have any college degrees.
    Ms. Vasques. If they are teaching a Native language or they 
are teaching a cultural program or they are teaching a subject 
possibly through one of the OIE fundings, which would be a 
supplemental service, they are not excluded from doing so. If 
they are teaching one of the core subjects, then by the year 
2005-06 they must be highly qualified to teach that particular 
core subject.
    Senator Inouye. So you do give waivers?
    Ms. Vasques. Pardon me?
    Senator Inouye. You do give waivers?
    Ms. Marburger. No; the requirement does not apply to 
teachers who are not teaching in a core academic area, for 
example in biology or a teacher that may be teaching algebra. 
The requirement only applies to teachers who are teaching in 
those core areas. As Vickie stated, if they are teaching a 
Native language, then they are not required to meet the highly 
qualified teacher requirement. Or if they are teaching in 
another one of the cultural areas, then they would not be 
required.
    Senator Inouye. Mr. Chairman.
    The Chairman. Just perhaps let me ask one additional thing, 
too. As I understand Senator Inouye's questions and your 
answers, core subjects would be something like math, physics or 
science.
    Ms. Marburger. Exactly.
    The Chairman. And they will need to have these 
requirements, which would be some academic institution 
certifying them as a teacher or the Department of Education 
issuing some certificate in lieu of that. But those people who 
are teaching perhaps shop, art, music, physical education or 
something else, they would not necessarily have to be certified 
by an academic institution. They could teach language, for 
instance, their Native language under some agreement or caveat 
with the school district? How would that work?
    Ms. Vasques. It is set by the State standards.
    The Chairman. By the State standards.
    Ms. Marburger. It does not even require a caveat or a 
waiver because the statute...
    The Chairman. The school could just hire them?
    Ms. Marburger. That is right. The statute does not require 
those highly qualified teacher requirements for teachers who 
are teaching in those other areas.
    The Chairman. Okay. Good, thank you.
    Ms. Rosier, on May 4, I requested that Secretary Norton 
meet with tribal cochairs of the Negotiated Rulemaking 
Committee of the No Child Left Behind. You alluded to that on 
the negotiated rulemaking. I understand the meeting has not 
taken place and that the tribal caucus was referred, of all 
things, to the Assistant Secretary of Fish, Wildlife and Parks. 
Do you know anything about that? What was the reason for that 
referral?
    Ms. Rosier. The reason for that referral was probably just 
an oversight. It is an oversight. There is no reason why tribal 
cochairs would be referred. They were most likely supposed to 
be referred to the Assistant Secretary for Indian Affairs.
    The Chairman. Is that being corrected? Are they talking to 
the right people now?
    Ms. Rosier. I did not know that they were referred to the 
Assistant Secretary for Fish and Wildlife.
    The Chairman. Okay. I just mentioned that, because we are 
talking about children, not fish. I think it is really 
important.
    Ms. Rosier. I apologize for that. I was unaware of that, 
but that is completely an oversight.
    The Chairman. Would you look into that for me, for the 
committee?
    Ms. Rosier. I will.
    The Chairman. Thank you.
    On school construction, school construction funding has 
increased, certainly not enough for some of us, including 
Senator Conrad I am sure. We still have a lot of dilapidated 
schools our there that our Indian children are trying to learn 
in. What steps have you taken to avoid delays in construction? 
Could you tell the committee that? Do you have a way of 
monitoring the system for construction, too?
    Ms. Rosier. We do have a way of monitoring. Before the 2001 
budget, the BIA was building about two schools a year. Under 
the last year of the past Administration and this 
Administration, our school construction program has absorbed 
much more money and more funding. We are in a position where we 
do not necessarily have a lot of schools lined up who have 
started their planning or have started moving forward. Right 
now, we have 25 projects that were funded between 2001 and 
2004. Four of those have been completed. We have 21 projects 
that are ongoing and 7 projects we hope will be completed. I 
know there are always construction delays, but we hope 7 more 
will be completed by December of this year.
    What we have done is we have been able to realize that we 
needed the staff to help the tribes be able to plan ahead. What 
we have done is we have started getting our planning grants out 
earlier. In fact, we are trying to award our planning grants 
for two schools that were recently named for Dilcon and 
Porcupine, and they were just recently named for the 2006 
funding year. I am trying to get out their planning money 
early. That is one step we have taken is to help them get their 
design and planning started a little bit earlier.
    The Chairman. How many schools are backlogged that need 
construction?
    Ms. Rosier. That probably depends on who you ask. On the 
current list for the Department, we have five scheduled for the 
2005 budget. We have five more schools listed. After that, we 
have just released a list for 14 more schools. That should 
carry us through the 2007 budget cycle, and it may possibly 
take us into 2008, too. It just depends on the funding 
provided.
    We have tried to get planning money. Another thing we have 
done is the result of the Inspector General is concern about 
that our schools being overbuilt. This past year we have done a 
lot of policy review inside of our facilities program. One 
thing we have tried to do is look at our enrollment projections 
policy, our space guidelines policy, and be more consistent; to 
provide an official policy so the tribes know ahead of time and 
have clear expectations of what the process is.
    We are doing a lot to improve the program, but I am sure we 
have some challenges that we still need to complete.
    The Chairman. Thank you. The sooner the better.
    The Office of the Inspector General's March 2004 report...
    Senator Conrad. Mr. Chairman?
    The Chairman. Yes, Senator Conrad?
    Senator Conrad. Might I just followup on a question that 
you asked?
    The Chairman. Sure. Go ahead.
    Senator Conrad. Thank you. I apologize for intruding, but I 
do not think that we got an answer to the question that you 
asked, which is a very important question. You asked the 
question, how many schools are there that need to be built, and 
how many are backlogged. The answer that was provided was how 
many are being funded. That is not a responsive answer to the 
question that was asked. I would say with all respect, you did 
not answer the gentleman's question. I would ask the same 
question. How many schools are there that are in the backlog? 
How many schools are there that need construction? How many 
schools are there that need rehabilitation?
    Ms. Rosier. I do not have that figure for you today. What I 
can tell you is the last area of the No Child Left Behind Act 
rulemaking that we are required to do and we are going to 
undertake, hopefully, this fall, is for school construction. 
One of the things that we are mandated by Congress to do is to 
establish the replacement school construction list and to set 
the criteria for the Department.
    That is one thing that we are going to be evaluating with 
the tribal members at the table, which is our school 
construction program.
    Senator Conrad. Could I just say this, Mr. Chairman? If 
there is anything, well, there are many areas where the system 
is broken, health care, housing, but schools are a big area. I 
can tell you, in my State there is a school, and it is not on 
the list. It was built about 25 years ago. It was built using a 
southwestern United States architect. It was built at a time 
when they had this notion of open schools.
    The Chairman. Nice in Phoenix, but not North Dakota?
    Senator Conrad. Mr. Chairman, I would say to you, in the 
winter in North Dakota, in one part of the school it is 75 
degrees; in another part of the school it is 50 degrees, 
because the heating systems are totally inadequate for our part 
of the country. Now, sitting in a 50-degree school, and they 
are not separate school rooms. It is the most incredible 
situation. It has the open school design, so you cannot hear 
yourself think. The result is it is a totally chaotic 
situation, and it is not on the list.
    So this is something that is an example of the kind of 
thing that needs to be dealt with. We have secondary schools 
that are absolutely abysmal in their condition. I think the 
first thing that we have to do is establish an accurate and 
honest and objective assessment of what the need is, which is 
really what the Chairman was asking. How great is the need? 
Only then can we fashion a serious Federal response as to how 
we address that backlog.
    In any event, I apologize to the Chairman.
    The Chairman. That is all right.
    Ms. Rosier, if you could get an inventory of backlogged 
schools for the committee, as close as you can come to it, I 
would appreciate that. I certainly agree with Senator Conrad. I 
taught school for 10 years in the public schools. You talk to 
any child psychologist, and they will tell you, kids cannot 
learn unless the atmosphere is right. If it is too cold or they 
are hungry or if it is too drafty or disruptive or anything 
that upsets the learning curve, they are just not going to 
learn. It is as simple as that.
    That is why it seems to me a safe environment and a healthy 
environment for the kids to learn, that is how they are going 
to learn. If we do not do that, they are simply not going to 
learn no matter how much money we pour into the problem. So 
please find that out for us.
    Let's talk about money a little bit. The Office of the 
Inspector General found in its 2004 report that education funds 
had not been adequately managed by No Child Left Behind 
standards. Has the Department delivered a response to the 
Office of the Inspector General? And what is the status of 
revising spending plan policies or procedures, if you have?
    Ms. Rosier. We have delivered a response and I know the 
relationship with the Office of the Inspector General and the 
BIA, we always provide supplemental information. They always 
have a request, so we are providing information on an ongoing 
basis with the Office of the Inspector General.
    I can say that Mr. Parisian has been in his position for 
about 1 year now, and many of those findings were before Mr. 
Parisian was Director of the Office of Indian Education 
Programs. I will let him speak about what he has been doing to 
change the environment. We have worked a lot on accountability. 
Ultimately, this money should be going to our schools and 
should be benefiting our students. That is one thing we have 
tried to do in the past since we became aware of these findings 
was to work to be accountable to the taxpayers and to our 
constituents with the Federal funding. I will let Mr. Parisian 
speak about specifics.
    The Chairman. All right, Mr. Parisian, why don't you go 
ahead and speak.
    Mr. Parisian. Thank you, Mr. Chairman.
    Ms. Rosier mentioned accountability. I have been in my 
position since August of last year, approximately 10 months, 
and I came in stressing accountability, particularly financial 
management. We are looking at those recommendations and 
implementing the recommendations that were in the Inspector 
General's report, particularly if you look at the contingency 
fund, as an example. It was mentioned in that report. Since I 
have been in the director's position, this last year we took 
what was left in the contingency fund and distributed the funds 
out to the schools. We did not have the need for the 
emergencies, at that time, as they are defined in the 
regulations, so the funds went out to the schools.
    The Chairman. Went out to the schools in what form?
    Mr. Parisian. It went out to schools in dollars per 
weighted student unit to every school. It was evenly 
distributed to the schools.
    This year's contingency fund we just submitted $30 per 
weighted student unit and sent it all out to the schools again 
this year because we did not have it so defined that we had the 
emergencies that we could justify for contingency funds.
    The only two other areas in which we used contingency funds 
this year was up in the Dakotas. We had a couple of schools 
that had some suicides, and we intervened and gave some dollars 
to work with the Indian Health Service to help with counseling 
services. Otherwise, those dollars were all distributed out to 
the schools.
    My philosophy, since I have come into this position is get 
the dollars to the schools, let them make the decisions, but 
then I am going to hold them accountable for results. I think 
that is the way it should be.
    The Chairman. Good. I have several other questions for you, 
Ms. Rosier, and I will submit those in writing if you would 
return those. To move along, let me ask Ms. Vasques a couple of 
questions, too.
    Tribes have indicated that students in rural reservations 
really do not have any choice in schools because some of them 
live 100 miles away from the next school. How does the No Child 
Left Behind Act create choices for kids in those remote areas?
    Ms. Vasques. I will answer that and then if you want to add 
something, Darla, please do.
    We recognize that we do not want a parent sending their 
child off on a 2-hour, 3-hours in some cases, bus ride one-way. 
We are working with our rural communities to work out these 
challenges under parental options. That includes working with 
parents, the community, and our tribal education departments.
    There are other options in our distance learning tutorial 
services and so forth, but I think Darla might want to 
elaborate.
    The Chairman. Do you want to add something to that?
    Ms. Marburger. Sure. I think it is very important that we 
recognize what resources we do and do not have access to 
whenever you take into account the rural nature of many of our 
schools. One of those areas we are really looking into is 
technology and how we can use technology to better deliver 
education to students in remote areas.
    As a matter of fact, the Secretary is hosting a series of 
leadership summits focused on technology. Our next one is going 
to be in Orlando on July 11 and 12. Part of this will include a 
``virtual schoolhouse'' where people can come in and see in 
action ways that technology is impacting education in allowing 
students in very different settings to participate in the same 
type of education. As part of that schoolhouse, I know that we 
have been talking to some of our grant recipients at Indian 
schools to be a part of that.
    It is very important whenever we do have cases of doing 
this successfully that we share that success so that others can 
look to them.
    The Chairman. I am a big supporter of the advancement we 
have made in technology to help with distance learning. I think 
it really has a place in all schools. Of course the problem we 
have a lot of times with Indian children is a lot of them need 
a hands-on approach because they have problems in the home or 
problems after school or other places, much worse than the 
public at large. You cannot fix that with a TV screen in front 
of you. It requires some personal input and some personal 
involvement with that child, too.
    Ms. Vasques, your testimony mentioned that the BIA must 
come up with an accountability plan. Does your Department have 
any oversight on that plan? How do you work with the schools to 
help meet the requirements of that plan?
    Ms. Vasques. Yes; we are working very closely with the BIA. 
The reason why Darla accompanied me today is she is our point 
person for policy on this cooperative working relationship. Do 
you want to give him more information?
    Ms. Marburger. Sure. We are working very closely with the 
BIA regarding accountability and the requirements under No 
Child Left Behind. As you know, the BIA is in the process right 
now of adopting a final rule. They have a proposed rule that is 
out for comment. The comment period is still open on that. They 
invited the Department to be involved and be a resource to them 
as they underwent that negotiated rulemaking.
    It is very important that our Indian children, as we 
mentioned earlier, based on the NAEP results, are held to the 
same high standards as other students, so that they are 
afforded the same opportunities by having a quality education.
    So as part of that, until the final rule is passed, we do 
have interim measures, accountability measures that are 
articulated in an agreement between the Department of the 
Interior and the Department of Education. We meet regularly 
with the Bureau regarding that and regarding the progress that 
students are making.
    The Chairman. I understand the Department of Education, and 
I think you alluded to this Ms. Vasques, that you have an 
agreement with the BIA regarding the distribution and use of 
program funds, but I can tell you from my own experience, 
getting the money to the agencies and getting to the Indians 
can be quite a different thing. We have had, at least some 
tribes believe that they are having real difficulties receiving 
the funding. Do you know anything about that? Is there a 
particular reason why the tribes have been unable to receive 
the funds in a timely manner when you have sent them through?
    Ms. Vasques. I can speak for ourselves. We dispersed our 
funds on September 24, 2003.
    The Chairman. Do you disperse them directly to the tribes? 
Some of those funds go to the BIA.
    Ms. Vasques. Directly to the BIA.
    The Chairman. Okay, that is where the glitch is. Maybe Mr. 
Parisian or Ms. Rosier can answer that. Why are some of the 
tribes complaining that they are not getting the money in any 
kind of a timely manner?
    Mr. Parisian. Mr. Chairman, we do get the funds and 
disperse them out, as I said, down to the school level. The 
title dollars are based on an application process or amendment 
process. So we get those amendments in, we work with the 
schools in getting those in the correct form. Once we do, we do 
get the dollars out to them.
    We have records that show, this year as an example, that we 
have had some schools not submit us amendments until January of 
this year, or February, but we can show that we turn the 
dollars around rather quickly. We have other schools that we 
gave dollars to in November, when we had the dollars, October, 
September, that did not get their money until December, but 
that had to do with a part B issue, which is a special 
education issue. When I found that out, I told the Centers for 
School Improvement that you need to disperse the dollars and we 
will deal with part B as a second matter. Most of those dollars 
did get out in December. We are working on improving that for 
the next school year.
    The Chairman. Okay, very good. Thank you.
    Ms. Vasques, you talked somewhat about the funding for 
American teacher training, which I certainly support. Tribes 
have a real problem with retention with qualified teachers, in 
fact even with recruiting. I know in some cases that people go 
out on the reservation, and some are very, very good teachers 
that go out on the reservation to teach those Indian kids. 
Others are simply repaying their student loans and cannot wait 
to get out of there, very frankly. I have a real problem with 
that kind of a teacher that has no commitment to the 
youngsters, but only they put in their 6 hours a day in school 
and they do not even talk to those kids after school. There is 
something wrong with that.
    How is the Department of Education dealing with recruitment 
and teacher training and problems associated particularly with 
those remote locations of tribal schools?
    Ms. Vasques. I can speak on my teacher training corps 
program, and I am sure Darla can add on the bigger picture.
    The Chairman. Okay.
    Ms. Vasques. We are working very closely with the American 
Indian Higher Education Consortium which oversees the 34 tribal 
colleges in the United States. As a matter of fact, before we 
announced this discretionary grant process, I personally sent a 
staff person out there to help them better understand what this 
teacher training program was about so we can get more colleges 
implementing these programs. Because they are the heart and 
soul of our Indian communities, so if we can get those 
certified teachers from that community, I think they will stay.
    The Chairman. Yes; you are absolutely right. That is their 
home. They are going to stay. If you import them from New York 
City, a lot of them are going to leave.
    Ms. Vasques. Yes; exactly. I agree. But Darla can address 
it on the bigger picture possibly.
    The Chairman. Darla, would you like to add a comment to 
that?
    Ms. Marburger. Yes; I would just like to say that we also 
have money that flows to SEAs for teachers, specifically for 
the recruitment and retention of highly qualified teachers, and 
for their development so that you can take teachers or para-
professionals that may not be certified but, who have an 
interest and already have exhibited a commitment to Indian 
children, and work with them to become fully certified.
    For example in recent years, we have had more than 50 
grants that have gone out to schools and universities, 
specifically to provide training and professional development 
for more than 500 Indian teachers and professionals. So those 
programs are available as well.
    Further, we really understand the importance of a teacher 
and the role that the teacher plays in the success of the 
student. We have developed the Teacher Assistance Corps to go 
out to the various States and SEAs and have also offered that 
to BIA as well. We can go and talk to them about the highly 
qualified teacher requirements and professional development and 
that type of thing and provide ongoing technical assistance to 
those States in those areas.
    The Chairman. Thank you. Important.
    I have no further questions, but I may submit some in 
writing. Other members may also. Just let me leave you with 
this. I will tell you, if you do a good job for children, you 
will rarely have a problem with this committee. I know I am 
speaking for literally every member, because it comes up over 
and over. The 12 years I have been on the committee, I will bet 
you one-fourth of the time our work has something to do with 
Indian children. I know the connection. We have to help them 
not only cherish and remember and have pride in their 
traditional ways, but we have to give them the skills to be 
able to cope with a modern society that is getting more 
difficult to cope with all the time.
    I just wanted to leave you with that note, help those kids. 
Thank you.
    We will now move to the second panel: Lillian Sparks, 
director, National Indian Education Association; Carmen Taylor, 
executive director, National Indian School Board Association; 
and Roger Bordeaux, superintendent, the Tiospa Zina Tribal 
School in South Dakota.
    Roger, you are Lionel's brother?
    Mr. Bordeaux. Cousin.
    The Chairman. Cousin. He is a good friend. Tell him hello 
for me. I have not seen him for a few years.
    Mr. Bordeaux. I will do that.
    The Chairman. We will proceed in that order, with Ms. 
Sparks speaking first and then Ms. Taylor and Mr. Bordeaux 
last. If you would like to abbreviate, that is good. We will 
include your complete written testimony in the committee report 
and I will ask a few questions of you when you conclude.
    Go ahead, Ms. Sparks.

    STATEMENT OF LILLIAN SPARKS, DIRECTOR, NATIONAL INDIAN 
                     EDUCATION ASSOCIATION

    Ms. Sparks. Good morning, Chairman Campbell. My name is 
Lillian Sparks and I am executive director of the National 
Indian Education Association. I am presenting testimony today 
on behalf of Cindy La Marr, president of NIEA. She sends 
regrets that she cannot be in attendance today as she is 
traveling out of the country, but she would like to reassure 
you she is committed to working toward improving the status of 
Native children throughout this Nation, and looks forward to 
working with the committee members and witnesses in this 
honorable goal.
    Thank you for this opportunity to submit testimony on 
behalf of the NIEA with regard to the impact of the No Child 
Left Behind Act on Indian students and educators of Indian 
students. This oversight hearing is an important beginning as 
we work together to implement the newly signed Executive order 
on American Indian and Alaska Native Education and address 
concerns of the NCLB Act.
    While NIEA generally supports the goals of the No Child 
Left Behind Act as set forth in detail below, the act needs to 
be tailored to the unique circumstances faced by schools 
serving large Native populations and it needs to be funded up 
to its full authorization levels. An important step toward 
tailoring the application of the act was taken by President 
Bush when he recently signed an Executive order on American 
Indian and Alaska Native Education, whose purpose is to assist 
American Indian and Alaska Native students to meet the 
challenging academic standards of the NCLB in a manner 
consistent with tribal traditions, languages and cultures.
    It will take hard work and sufficient Federal funding to 
fulfill the promise of this Executive order and of the NCLB. 
NIEA worked closely with the Department of Education and the 
White House in the drafting of the Executive order. We have 
high expectations that the Executive order will lead to 
specific proposals to enhance Indian education under the NCLB. 
It will take extensive consultation with Indian country and 
sufficient Federal funding. We believe that the Congress and 
the Administration have recognized that a culturally based 
education approach is for Natives not only an educational 
strategy for improved achievement, but also a fundamental civil 
right for Indian people. Indian communities have a fundamental 
right to their languages and culture.
    The central pillars of NCLB are increased accountability 
through testing, more choices for parents and students who 
attend title I schools that fail to meet state standards, 
greater flexibility for states, school districts and schools in 
the administration of NCLB programs, and a major emphasis on 
reading through the Reading First initiative.
    In addition, title VII of the NCLB specifically addresses 
programs for Indian students. This provision squarely situates 
Federal Indian education policy within the Federal Government's 
trust responsibility to Indian people. It also emphasizes the 
unique educational and culturally related academic needs of 
Indian children. This is good policy, but the real question is 
what can be accomplished and will the Federal Government make a 
commitment sufficiently great as to ensure the success of that 
policy whose purpose is largely to undo the extraordinary harm 
that the Federal Government has done to Indian peoples over the 
course of many years.
    A basic tenet of Federal Indian policy is that the 
education of Indians is the responsibility of the Federal 
Government. The NCLB law directly addresses improving the 
quality of education for Indian students in the BIA school 
system. However, over 92 percent of the Nation's Indian 
children attend State-run public schools. The U.S. Department 
of Education's National Center for Education Statistics' most 
recent data charts indicate 584,000-plus Indian children attend 
the Nation's public schools, while only about 49,000 attend BIA 
schools.
    The 460,000-plus children served under NCLB title VII 
formula grants to school districts generate minimal funds at an 
average of $226 per pupil per year. These meager amounts of 
money cannot come close to guaranteeing equal access to quality 
educational services for the vast majority of Indian students 
attending State-run public schools across the Nation.
    We have serious concerns about several obstacles this act 
presents to Indian communities, particularly to those who live 
in remote, isolated and economically disadvantaged 
environments. There are many key factors that inhibit the 
successful implementation of NCLB in Indian communities. 
Schools serving Indian students receive inadequate levels of 
funding through title VII to allow for the development of 
culturally oriented academic programs. President Bush's 
proposed fiscal year 2005 budget for the Department of 
Education, while providing for an overall increase of 3 
percent, provides no increases for the title VII program 
serving American Indians, Native Alaskans and Native Hawaiians. 
Full funding of NCLB will be necessary if its goals are to be 
achieved.
    As was noted in a September 2003 GAO report on BIA schools, 
the BIA student population, ``is characterized by factors that 
are generally associated with higher costs of education. Almost 
all students live in poverty and more than one-half are limited 
in English proficiency. A substantial number have 
disabilities.''
    Similar factors would increase costs to non-BIA schools 
with large Indian populations. The timeframes for results do 
not adequately account for the investment in time and resources 
required to develop effective culturally based education 
approaches or to develop curricula that reflect the cultural 
and linguistic heritage of the community. School-based testing 
requirements fail to recognize the implications of the high 
student mobility and dropout rates that are characteristic of 
Indian communities.
    According to NCLB, the definition of a highly qualified 
teacher refers to subject matter competence as defined by 
certification and college majors. The statute does not add to 
this definition the conflict of capacity and knowledge of local 
traditions, beliefs and values in order to be an effective 
teacher of Indian students, or the fact that remote or isolated 
communities have limited access to highly qualified teachers as 
defined.
    Knowledge of what works for Indian education programs may 
exist, but often are not locally available. Accomplishment of 
the broad-based goals of the statute requires strategic 
partnerships. The availability of these partnerships in small, 
rural and isolated communities is limited and often very 
difficult to coordinate. Many schools that serve Indian 
populations simply do not have the resources to meet the NCLB 
standards. NCLB also provides confused guidance on adequate 
yearly progress mandates, inadequate assessment examples for 
limited English-proficient students, weakened protections to 
prevent high dropout rates, a lack of focus on parental 
involvement, a lack of recognition of para-professional 
qualifications, and a basic denial of civil rights protections 
for children.
    The fiscal year 2005 budget request proposes a 3-percent 
increase for the Department of Education. However, Indian 
education program funding levels would remain the same as for 
fiscal year 2004 and remain down from the fiscal year 2003 
level. The education for Native Hawaiians Program would remain 
the same as for fiscal year 2004, as would the Alaska and 
Indian education equity funding. It is difficult to understand 
why these programs were not given an equitable funding 
increase.
    The overall Interior budget is proposed to be cut by .5 
percent, which includes $66 million cut for Indian school 
construction. The Senate needs to resolve this oversight and 
restore the education funds proposed to be cut back into the 
Interior budget.
    One of the most powerful actions the Federal Government can 
take to improve Native education is to support the development 
of tribal education departments, a strategy that has not been 
fully implemented, but which has tremendous potential to 
improve American Indian and Alaska Native student success in 
schools. It is to support tribal governments in their efforts 
to improve the education of their tribal members. Achieving 
more tribal control of education through tribal education 
departments furthers the Federal policy of tribal self-
determination and will increase tribal accountability and 
responsibility for education of all our students.
    Federal support for tribal education departments have been 
authorized in several Federal statutes, including the No Child 
Left Behind Act. Despite these authorizations, the Federal 
Government has never appropriated Federal funds for these 
programs. For fiscal year 2005, NIEA seeks a total of $250,000 
for tribal education departments for 12 tribes as an initial 
investment to improve Indian education.
    The House Appropriations Committee recently requested that 
funds be restored, including $645 million for BIA education, a 
$4-million increase over the current funding levels. The 
committee also recommended restoration of funding for BIA 
school construction, the United Tribes Technical College and 
the Crown Point Institute.
    In conclusion, President LaMarr would like to respectfully 
remind the committee about the consideration of forming a task 
force on public relations as requested by Vice Chairman Inouye 
in February. NIEA is committed to this effort and we 
respectfully urge the committee to make Indian education a 
priority, working to find ways to ensure true progress for 
Indian students.
    We encourage this committee to hold field hearings and 
listening sessions throughout Indian country to hear the Indian 
voice. It is eloquent and compelling, and without exception 
calls for a greater investment in our children.
    Thank you.
    The Chairman. Thank you.
    Okay, we will go on to Ms. Taylor. As I mentioned before, 
you may abbreviate because your complete testimony will be in 
the record and we will be reading it anyway.

   STATEMENT OF CARMEN CORNELIUS TAYLOR, EXECUTIVE DIRECTOR, 
            NATIONAL INDIAN SCHOOL BOARD ASSOCIATION

    Ms. Taylor. Thank you, Mr. Chairman. I am honored to be 
here this morning. My name is Carmen Taylor. I am an enrolled 
member of the Confederated Salish and Kootenai Tribes of the 
Flathead Nation in Montana. I have served as executive director 
for NISBA for over 20 years. We represent well over half of the 
185 Bureau-funded schools, as well as a few public schools as 
well.
    This is a very important hearing on No Child Left Behind, 
and implementation concerns as well. First, I will state that 
we have always been supportive of the whole concept of leaving 
no child behind. I think probably everybody is. We have done 
this since 1987 by encouraging schools to use the Effective 
Schools research as the basis for their school reform, because 
the first belief of Effective Schools is that all children can 
learn whatever it takes. So I think all children can learn is 
certainly a parallel with No Child Left Behind. I think 
probably some of the disagreement that we have might be in the 
whatever it takes.
    Effective Schools is a continuous improvement school reform 
model. It uses data-driven decisionmaking. It also promotes 
disaggregation of data for certain groups of students. I 
believe that one of the positive things that No Child Left 
Behind has done is to focus attention on student achievement 
through this disaggregation of data. Because of this, many 
States are paying much closer attention to the achievement 
levels and learning of American Indians. In fact, this August 
the Council for Chief State School Officers will be holding a 
forum to discuss what the States can do to help Indian students 
learn.
    I guess where we kind of depart is that we do believe that 
No Child Left Behind assumes that every community, every school 
and every child are the same, and that is it seen by us as more 
of a one-size-fits-all model with no regard for socio-economic 
differences, for differences in learning styles, cultural 
differences or inequality of resources.
    It is a top-down attempt at school reform that in my 
opinion or in our opinion makes a mockery of such concepts as 
state rights and local control. This is true at the State level 
as well as at the 51st State level, which is the BIA. NCLB is 
punitive, rather than supportive. We should be helping schools 
build capacity, not punishing them.
    Before schools go into school improvement or corrective 
action, terms that are part of No Child Left Behind, there 
should be quality technical assistance provided to the schools. 
For schools funded by the BIA, there has been little or no 
quality technical assistance provided. Only recently did BIA 
Office of Indian Education Programs distribute money to schools 
and education line officers for professional development and 
other purposes. This has been in the last 2 weeks. This is 
June. School is out in most locations. This is money that 
should have been distributed early in the school year so that 
schools could get the best use out of it.
    Grant and contract schools at least are able to carry this 
money over into the next school year. BIA-operated schools, 
approximately one-third of the schools in the Bureau-funded 
system, must have it obligated by September 30. Many school 
administrators that I have talked to are worried that they will 
not be able to make it because of the cumbersome procedures and 
delays in being able to issue contracts to service providers.
    We have also had comments from schools about the fact that 
the Bureau is telling them who and who they cannot use as 
service providers. The same is true of the contingency funds 
that Mr. Parisian talked about earlier. Although I can 
understand why the contingency funds just now went out to the 
schools on a pro-rated student unit basis, some of the schools 
may have some difficulties getting these obligated before the 
end of the fiscal year. I have been told by some administrators 
that it can take up as long as 6 months to go through the 
contracting process.
    In a report, From the Capital to the Classroom, Year Two of 
NCLB, from the Center on Education Policy, it is also noted 
that 38 out of 48 States responding to a question about 
capacity reported that they do not have sufficient staff to 
carryout the duties required under NCLB. Yet local school 
districts said that State education agencies were the resource 
they relied on the most to help them implement the Act. In the 
same report, 24 of 40 States reported that fiscal problems were 
adversely affecting their ability to carryout the law. One-half 
of the responding States said that local school districts are 
currently being hampered in attaining the goals of the act 
because of fiscal problems attributed mostly to the State 
budget deficits. All of this certainly has a direct impact on 
the public schools serving Indian students.
    Of concern to most Indian schools, often because of their 
small size and their isolation, is the provision about highly 
qualified teachers. As you know, it has been discussed here 
before that teachers need to have a degree in the subject that 
they are teaching. In many of these rural schools, they might 
be teaching two or three or four subjects, and they are not 
going to be able to meet that requirement. This is the same 
which is true for BIA-funded schools as well.
    Also, the provision about school choice is really not 
feasible for rural schools, nor is the provision for 
supplemental services. If a school is failing, there are 
sometimes no alternatives offered within hundreds of miles and 
supplemental service providers are often nonexistent or very 
expensive because they are traveling great distances.
    There is way too little focus on social causes of poor 
performance. Children cannot learn when they are hungry or 
tired. They cannot learn when they are affected by alcohol and 
drugs. Indian students also have a long history of struggling 
on standardized tests. That weakness can be traced partly to 
their lack of knowledge of English. Non-Indian students 
typically enter kindergarten with a working knowledge of 20,000 
words in English. For Indian students, their vocabulary at that 
age usually hovers around 3,000 words. These are not excuses, 
but these are facts of life for children who live on Indian 
reservations.
    I really believe that with No Child Left Behind, there is 
way too much dependence on the standardized test. There are 
other ways that we can assess children's learning on an ongoing 
basis without putting everything on one day in a child's life 
when they come in to take a test. We have recently completed a 
3-year school reform capacity-building grant that was funded 
through the Office of Education Research and Improvement. We 
worked with 16 schools during that time, and a the end of the 
time we found that the schools all showed significant increases 
in reading achievement.
    When we began to isolate the variables, it was shown that 
the cultural curriculum that was used was the only reliable 
predictor positively associated with achievement gains at the 
elementary level. At the middle and high schools, tribal values 
was the best single predictor of achievement gains. So culture 
and language are extremely important in helping make success 
for the Indian students.
    I would like to just say that I made an attempt to go out 
and get some feedback from administrators within the Bureau 
system. There is real concern about the focus on the 
bureaucracy and very little focus on teaching and learning. 
They are very frustrated. They feel like it is a threatening 
environment that they are working in that has created even more 
stressful working environments; that there are unreasonable 
timelines; dictatorial attitudes; lack of assistance; too many 
mandatory meetings; poor dissemination of information; funds 
not available on time; and inconsistent implementation of 
policies.
    A big issue has been background checks. In one instance, an 
administrator reported that it took 75 days to get clearance on 
the background check. In another, an administrator hired 10 
people in November, 5 ended up taking up other positions while 
waiting for clearance and two others finally got clearance 3 
weeks before school was out.
    So we are really concerned about some of the administrative 
issues, and although those are not connected directly to No 
Child Left Behind, they certainly affect the implementation. We 
are also concerned about the reorganization of the Bureau. It 
is very contrary to the various public laws that we have worked 
hard on over the years. So education once again no longer has 
direct control over administrative support services, and that 
is going to end up being very harmful to the schools in the 
end.
    We thank you again for this opportunity and would be 
available to answer any questions.
    [Prepared statement of Ms. Taylor appears in appendix.]
    The Chairman. Thank you.
    When I went to college, I went to what used to be called 
San Jose State Teachers College. It is in the university system 
now, in California. Maybe you know that school in San Jose. In 
those days, the State of California gave two types of teaching 
credentials. One was called a special education credential, 
which said you were qualified to teach a specific subject from 
K-2-year college level. The other one was called a general 
education certificate which said you were qualified to teach 
anything K-12. After I got out, one of my first jobs, guess 
what, I got assigned to music, science, and girls PE, and I did 
not know one single thing about any of them.
    They have changed that now. I still have those credentials, 
by the way, and I still do not know anything about them. But I 
never saw such a dumb way of filing credentials for people just 
so schools could move you around any way they wanted. Of 
course, public schools, they loved those of us who had general 
education credentials because that is exactly what they did. 
They stuck us in all kinds of stuff. Where there was a hole, 
that is where they would put us.
    I thought, what a disservice to kids. Well, I put up with 
that for a little while, and then I participated in a one-man 
Indian uprising and got out of there, but it was one of the 
dumbest things I have ever been involved in, when they gave me 
that teaching credential.
    Well, let me go on. Dr. Bordeaux, I am sure you never faced 
that problem with your credentials.
    Mr. Bordeaux. Daily, every day.
    The Chairman. Every day. Good to see you. I believe this is 
the first time you have been in front of the committee since we 
took testimony on the original bill, if I am not mistaken. Is 
that correct?
    Mr. Bordeaux. You are close. It was a little over 2-years 
ago, I believe.
    The Chairman. Thanks for being here.

STATEMENT OF ROGER BORDEAUX, SUPERINTENDENT, TIOSPA ZINA TRIBAL 
                             SCHOOL

    Mr. Bordeaux. I would like to talk a little bit about the 
implementation of the No Child Left Behind law, and 
specifically a couple of issues that deal specifically with the 
Native American Education Improvement Act, which you, Mr. 
Chairman, sponsored. One of the things that is kind of 
troubling is the Department of the Interior's decision not to 
implement a lot of things. I think it was brought up by you and 
Senator Inouye about the reporting requirements and some of the 
things that have gone.
    I think if you even go back to the education amendments of 
1978 when 95-561 was passed, there are still some things on the 
book that they chose never to implement. It is kind of 
perplexing why they have never done, nobody has ever really 
pushed them to do a lot of the things.
    One of the big issues right now is the big reorganization 
stuff that is going on. I faxed some exhibits to the committee 
office and I want to make sure that all of these exhibits 
become part of the record. I will give them again.
    The Chairman. I am told we do have them. They will become 
part of the record.
    Mr. Bordeaux. Okay, thank you.
    One of them is from the Congressional Research Service. We 
requested a congressman to do the legal research through CRS to 
ask if the reorganization complied with the No Child Left 
Behind law. In essence, the response from CRS said that the 
Department of the Interior appears to have acted in 
contravention of that intention and in violation of the 
statute. I think it is important that somebody in Congress 
tells them that the reorganization, what they are doing 
violates the No Child Left Behind law and they need to stop 
that reorganization process specifically in regard to education 
functions.
    Another big issue which was brought up by Ms. Rosier and 
also you and the other Senators, deals with the whole thing of 
school curtailment language in the American Indian Improvement 
Act. It is a perception that they have that they have the 
authority to close, consolidate or substantially curtail any 
school that they choose to. At the committee level of the 
Negotiated Rulemaking Committee, it was the tribal 
representatives' interpretation of the law that it is clear 
that Congress says that they can do that only with tribal 
governing body approval. I think that is something that needs 
to be made clear. My interpretation of what Congress intended 
was that there be a tribal governing body involvement in those 
decisions.
    So I think those are two big things that I think part of 
the Native American Improvement Act, Indian Education 
Improvement Act that really needs to be taken a look at.
    I also put in the exhibits another thing that kind of 
troubles me, which is that there are at least 11 different 
programs that I went through, and all of the funding provisions 
that are on the Department of Education's Website. There are at 
least 11 programs that do not have any Indian set-aside money. 
So if you look at it from one of our perspectives anyway, is 
that at least in those 11 programs, all of the children that 
are in public schools receive those moneys through the state. 
For the 50,000 children that are in BIA-operated or -funded 
systems, they do not have access to those 11 programs, either 
through the Bureau or through the States.
    There are other places that I think, and I know that not 
necessarily in NCLB, but the Department has requested as part 
of special ed, if you look at the funding source in special 
education, there has been about an 80 or 90 percent increase in 
the last 3 or 4 years. If you look at the Bureau's 
appropriation amount, there has only been about a 7- or 8-
percent increase. That was something that was initially 
requested by the Department of Education, I believe, and was 
concurred by Congress in appropriation language.
    Part of that whole funding problem, too, is because of what 
Carmen said about the Bureau's process of going through 
amendments and reviews and all this kind of stuff, they end up, 
this is again what we perceive, at the end of the year at least 
the last 2 years, they have had a lot of money at the end of 
the year and they have to give it back to Treasury or somebody, 
or else distribute it. So they end up distributing money, like 
within the last 2 or 3 months they came up with a program 
called Project Achieve at all the schools.
    The Chairman. That is one of the complaints we had, by the 
way, when I mentioned some complaints a while ago that there is 
some sort of last-minute dumping of the money so it would not 
go back to the Treasury, with no real plan about where it was 
going to go.
    Mr. Bordeaux. Yes; and I think all of that is real planning 
problems up front. I am not even sure that they have money from 
the Department of Education for next year's funding cycle for 
school improvement funds. The program starts July 1, which is 
only 2 weeks away. In our case, at our agency they are having a 
meeting on June 28 and 29 about the amendment process, of how 
to get the money for programs that supposedly start on July 1.
    I submitted an application for next year, toward the end of 
March or early April, in anticipation of something like this, 
and I have not gotten any response yet at all. I suspect that 
those funding sources will probably not become available at the 
school level until September or October. It is planning 
structures that have to be really fixed because it is happening 
at the school level, and we are not getting money 10, 11, 12 
months into the school year.
    And then the last thing I really want to talk about also is 
the whole accountability stuff in No Child Left Behind in 
regards to adequate yearly progress and falling into school 
improvement or corrective action or restructuring. I have some 
exhibits. I think I have four charts from testing data from 
Tiospa Zina Tribal School which shows that results based on 
norm reference testing which is national testing stuff that the 
Bureau uses for assessment, I have the State assessment 
processes which are augmented assessments from the national 
norm tests, and then I also have some individual assessments 
that we do based on our own standards that we developed as part 
of the Goals 2000 legislation a number of years ago.
    There is a lot of wide discrepancies on who and what 
assessment we should use, plus the differences. In taking these 
three assessments, they show different things on the percentage 
of students that are proficient and advanced. One of the 
illustrations is in math. At the 11th graders, in one instance 
59 percent of our 11th grade students are proficient or 
advanced in mathematics, and then in a different case, 29 
percent are. So if some schools choose to adopt the State 
stuff, or if they even adopt their own, I am one of those 
strong believers that the way that the law is written, all 
school children will be in schools that will be in 
restructuring by the year 2014. It just cannot happen where 100 
percent of the kids will be proficient or advanced regardless 
of whose criteria it is going to be.
    So I think No Child Left Behind is like a real good idea, 
but a bad strategy. I was kind of jokingly telling my brother 
who is a public school superintendent that that whole thing of 
No Child Left Behind, of having a real good goal to reach, but 
a bad strategy to get there, reminds me a little bit of what is 
going on in Iraq right now, but that is a different area that 
we need to talk about some other time.
    So in conclusion, I think that we have to look real close 
at what we are doing to kids in general and Indian children 
specifically because of poverty issues on reservations. If we 
do not change some things and do some proper planning way ahead 
of time and do stuff, we are not going to make a lot of big 
significant difference even over the next 4, 5, or 6 years.
    Again, if there are any questions, I am more than willing 
to take them.
    [Prepared statement of Mr. Bordeaux appears in appendix.]
    The Chairman. Okay, thank you.
    Let me start with Ms. Sparks. You have been in your current 
appointment less than 1 year, Ms. Sparks?
    Ms. Sparks. About 1 month.
    The Chairman. About 1 month. Well, then I do not want to 
unload questions on you that you probably do not know anything 
about, but if you cannot answer them, maybe you could get back 
to us.
    Ms. Sparks. I will certainly make an attempt.
    The Chairman. Yes; that is good. In your written testimony, 
you say there are numerous concerns about the act, but as near 
as I can tell after two years of implementation, the Indian 
Education Association has not offered any recommendations for 
changes. Do you know why that is?
    Ms. Sparks. We have spent a lot of time reviewing the 
legislation. I do not want to make excuses, but we have been 
short-staffed and my position has been filled just most 
recently. We are now here in Washington, DC and we are going to 
be more active and more vocal on legislation with regard to 
Indian education.
    The Chairman. Good, because we need help. I have to tell 
you, we do not have all the knowledge around here, and if we do 
not get help from professional organizations, we wallow around 
some. So I certainly encourage the National Indian Education 
Association to participate with recommendations to help us with 
bills like this.
    You have only been there 1 month, but do you know if your 
organization, the NIEA, has partnered with any tribes or tribal 
schools to help prevent this terrific dropout rate that we have 
of Indian kids?
    Ms. Sparks. Certainly. In the past, we have worked with a 
number of schools and tribes. I can get you the specifics once 
I get back.
    The Chairman. Would you do that?
    Ms. Sparks. Absolutely. We are looking forward to going out 
into Indian country throughout the rest of this year and 
holding listening sessions and working with the schools and 
finding out exactly what is going on in the community and how 
we can address it here through our organization.
    The Chairman. All right. If you would provide that to the 
committee, I would appreciate it.
    Ms. Sparks. Absolutely.
    The Chairman. Your testimony also notes that certain 
testing is quote, `` culturally inappropriate'' for Indian 
kids. Give me an example of that. Is math ``culturally 
inappropriate,'' for instance?
    Ms. Sparks. I think what that statement means to say is 
that the way that the tests are being administered is 
culturally inappropriate and they do not accurately reflect 
what our children are learning and how they are learning it. I 
think the exhibits that Dr. Bordeaux has submitted demonstrate 
what it is that we are trying to convey as far as how the tests 
are administered, what is included on the tests.
    It is not to say that math is culturally inappropriate. 
What we need to have is testing standards that more accurately 
assess what our children are learning.
    The Chairman. Can you give me any example of what is 
culturally inappropriate?
    Ms. Sparks. No; I cannot.
    The Chairman. Your testimony also states that the 
definition of ``highly qualified teachers'' does not include 
knowledge of local traditions. I happen to think that knowledge 
of local conditions are really important for a teacher of 
Indian children. Would you suggest that that be included as a 
definition of ``highly qualified teachers''?
    Ms. Sparks. I definitely think that should be taken into 
consideration. We are very encouraged by listening to the panel 
before us, as Native language speakers or teachers that would 
have some of these qualifications. While they are not 
considered highly qualified teachers to teach content areas, 
they would still not be excluded from teaching in the schools.
    The Chairman. I think that is important, too.
    Your testimony indicates that there was no focus on 
parental involvement in the No Child Left Behind Act. How can 
we address that? Does the Federal Government have to dictate 
parental involvement? I think we do that with Title I, if I am 
not mistaken. There has to be an Indian board or something that 
helps determine the use of Federal money for Indian kids.
    Ms. Sparks. Sure. It certainly could be encouraged through 
Federal legislation. It has worked in the Native model through 
Indian Head Start and the Head Start program's parental 
involvement is included. I do not think that it is something 
that cannot be included in Federal legislation. I think it is 
certainly something that should be included as far as 
encouraging parental involvement because it does work in the 
Native model.
    The Chairman. Thank you. I appreciate it.
    Ms. Taylor, your testimony indicates that since 1987, the 
National Indian School Board Association has promoted effective 
schools research. What would you say is the most important data 
that has come out of that research?
    Ms. Taylor. Actually, the BIA, Office of Indian Education 
Programs promoted it and actually used effective schools 
research for school improvement from about 1987-94. One of the 
things that we began to see, because we worked with them very 
closely during that time, we saw definite improvement in the 
school climate and the learning environment for the children. 
That seemed to be a very strong focus. We began to see that 
there was less turnover in teachers and administrators. We 
began to see improvement in test scores. I would say that those 
are the three probably primary improvement areas that we saw 
over time.
    The Chairman. Thank you.
    Your testimony also stated that the No Child Left Behind 
Act made education more standardized, but not for language, 
culture and history. You do not need to answer this, but I am 
not sure how we do standardize things like language, culture 
and history because tribes are different. I think it is 
important, but certainly ought to be left to the local school 
boards and the local people to determine what ought to be 
included.
    Ms. Taylor. Correct.
    The Chairman. You stated that attracting highly qualified 
teachers is difficult. I certainly agree. Would you agree that 
one of the ways to help solve that problem is to get more 
people who live on the reservation, more Indian people involved 
in teacher education where they can get training?
    Ms. Taylor. Yes.
    The Chairman. Do you think we are doing an adequate job in 
the Administration or in our side of the Hill here in trying to 
promote that?
    Ms. Taylor. I think there needs to be more focus on it. 
Funds always help, of course, to help pay for tuition et 
cetera, for teachers. I think perhaps there needs to be more 
focus on what we call the para-educators, those people who are 
teaching assistants in the schools that are local people, work 
with them, get them into 4-year positions.
    The Chairman. One of the problems I think on reservations 
is that a lot of the people that go to the tribal colleges, 
they are people who got married when they were young, had 
children, and they have children, and so they find it 
convenient to go to the tribal college because it is right 
there, and they can have somebody watch the kids while at 
school. But it is difficult for them to move to some city a few 
hundred miles away to get teacher training or to get their 
certification because of their children. They cannot do it. It 
seems to me that the more we can do in the tribal-controlled 
schools or the Indian colleges toward getting people teaching 
credentials, the better we would all be.
    Are there some successful programs out there that you know 
that have taught Indian children toward proficiency in both 
English and their traditional language too? I realize that in 
some tribes, the language is almost a dying language. Nobody 
under 60 years old can speak it anymore in some tribes. But the 
larger tribes, like the Navajo and the Lakota and so on, there 
are probably some success stories there.
    Ms. Taylor. I cannot name one right now, but I am sure that 
there are some.
    The Chairman. That is all right. It was just in passing. 
Thanks anyway.
    I thank this panel for being here. We will submit some 
questions in writing, too. Thank you very much.
    Our last panel will be Terry Ben, director of the Tribal 
Schools, Mississippi Band of Choctaws; and Leland Leonard, the 
director of the Division of Dine Education Committee for the 
Navajo Nation from Window Rock. If you gentleman would sit 
down. We appreciate your both being here. We will start with 
Mr. Ben.
    As with the other panels, we are running a little late. We 
have been in here almost 3 hours now. If you could abbreviate, 
your complete testimony will be in the record.
    Go ahead, Mr. Ben.

STATEMENT OF TERRY BEN, DIRECTOR OF TRIBAL SCHOOLS, MISSISSIPPI 
                    BAND OF CHOCTAW INDIANS

    Mr. Ben. Mr. Chairman, it is a pleasure to be here this 
afternoon. I will just be abbreviated. The Mississippi Band of 
Choctaw Indians operates the largest consolidated tribal school 
system in the Nation. This school system consists of eight 
schools, including a boarding high school, located in six 
different tribal communities spread over three counties and 
claims about 1,800 students.
    I know this hearing is about No Child Left Behind, and how 
it relates to Indian country and the Mississippi Band of 
Choctaw Indians specifically. The written statement addresses 
that, but I have a few points that I would like to make here 
about Indian education in general.
    The primary effect of No Child Left Behind is to 
concentrate tribal and Federal attention on finding the most 
equitable way to distribute what is in fact inadequate funding. 
That is the main situation where we would like to concentrate 
on. The testimony will be reflecting that.
    The danger of No Child Left Behind is that it will compare 
tribal education to the overall education system on an equal 
basis. However, there is nothing equal about Indian education. 
It has never been properly funded. We had no schools in all of 
Mississippi for Choctaw kids until the 1920's and no high 
school until 1963. Our population is bilingual and 
disproportionately poor, widely dispersed and isolated.
    Such factors as these have to be considered when 
distributing Federal funds, as well as when looking at 
performance. No Child Left Behind is useful for measuring 
academic progress of Indian children in relation to other 
children within the tribe's State. That is a useful measure 
that helps to determine if our educational program is working.
    But the real challenge is to require the Federal Government 
to adequately fund Indian education. The only reason Choctaw 
schools have achieved anything like parity with public schools 
in our area is because the tribe has spent a lot of its own 
money, over and above what the BIA has provided, and have been 
able to add programs, increase teacher pay and build schools.
    For the record, over the past 8 years our tribal 
governments have provided an average of about 20 percent of the 
annual funding for our schools. Of the $50 million spent on 
school construction during that time period, approximately $35 
million was provided by the tribe. While this has improved 
educational attainment of our tribal members, it has required a 
diversion of tribal resources away from tribal government's 
primary goal of creating jobs and economic development in order 
to lift the economic success of our people.
    Education is certainly a key component to increasing 
economic well-being, but in Indian country education is 
supposed to be a Federal commitment and obligation. No Child 
Left Behind does not solve the funding inadequacies now account 
for the unique cultural issues of the tribal schools.
    Basically, what we are asking and what we heard about as 
far the testimony this morning, we heard a lot about 
contingency funds; we heard a lot about grants from different 
groups coming down and maybe not coming down to Indian country 
or the Choctaw area. But basically, what we are proposing is 
increasing the basic ISEP formula, that is the basic number 
that each individual Indian child, that is what they get in 
terms of being enrolled and being counted in what they call 
student count week.
    What we would like to do is propose that the committee at 
some point in the future to maybe raise that particular area in 
basic ISEP to maybe someday a match or be close to what DOD 
figures are for military schools. We believe that a consistent 
funding in the area of basic ISEP will be the basic way to go, 
rather than relying on grants that a tribe may get or a school 
may get or not get. Grants are usually for about a 2- or 3- or 
4- or 5-year period. Sometimes maybe a good program may not be 
carried out in its entirety in its life during that time 
period.
    So that is the basic proposal from Mississippi Band of 
Choctaw Indians to maybe hopefully substantially increase the 
basic ISEP formula which is usually about $3,000 per child as 
such.
    So to wrap it up, I would like to say three more items just 
for the committee to hear: A sizable increase for the basic 
ISEP; also as we heard in previous testimony this morning, 
increase funding for transportation. We have had our 
transportation mileage basically decreased over the last 2 
years. Also as mentioned in official testimony, we would like 
basic ISEP also to include a pre-K program to be a part of the 
basic ISEP.
    As we all know, there are all kinds of different studies in 
America and the importance of the pre-K programs cannot be 
argued by anybody. It is a great excellent program. I realize 
that there are daycare centers out there. I realize that there 
are Head Start centers out there, but not every child, not 
every Indian child is part of daycare or they are not part of 
Head Start because facility constraints; because of distance 
from those centers.
    So we urge this committee in the future also to recommend 
in the basic ISEP a pre-K program that is one of the things 
that can really be of great benefit not only for Mississippi 
Choctaw, but for all of Indian country as such. That is an item 
I wish to convey.
    Before I yield the mike, I would also like to mention one 
thing that was a concern to us, and I wanted to get up so very 
bad, but I did not earlier when somebody was talking about 
school construction. We do have one school. We have a high 
school there, Choctaw Central High School. It was built in 
1963. As one of the fellow Senators indicated on the panel, we 
could use some dollars in that area, too. Choctaw Central High 
School was built in 1963. Our school system has some good 
schools, but we need some more additional new schools.
    With that I would like to thank the committee. Thank you, 
Mr. Chairman.
    The Chairman. Thank you.
    I realize you probably do have some problems in 
construction, and the problems any school has with high school 
dropouts or a kid now and then going bad, something of that 
nature. But by and large, I think the Mississippi Band of 
Choctaws have done a wonderful job with their education 
program. It is really kind of a model that a lot of other 
schools ought to take a look at. Any tribe that can provide $35 
million of its own money for school construction also says 
something about their economic situation and the successfulness 
of the tribe in general.
    So please give Chief Martin my personal best wishes. He has 
been a good friend of this committee for years and years.
    Mr. Ben. I will.
    The Chairman. We will now to go our last witness. Mr. 
Leonard, if you would like to proceed. Your complete testimony 
will be in the record and you may abbreviate.

    STATEMENT OF LELAND LEONARD, DIRECTOR, DIVISION OF DINE 
               EDUCATION COMMITTEE, NAVAJO NATION

    Mr. Leonard. Thank you, sir. Greetings from the Navajo 
Nation.
    Chairman Campbell, members of the committee, on behalf of 
the Navajo Nation, thank you for inviting us to provide 
testimony before the honorable committee on the topic of 
implementation of the No Child Left Behind.
    The Navajo Nation's view of implementation of No Child Left 
Behind of 2001 is two-fold. First, the Navajo Nation agrees 
with the intent of the No Child Left Behind Act, which is to 
not only have our children achieve at the highest capacities or 
capabilities, but also insist that our educators also achieve 
at their highest capabilities. Second, the changes initiated by 
the No Child Left Behind Act resulted in the Navajo Nation 
asking itself two questions. First, do the changes help the 
Navajo Nation better educate its children and better train its 
educators? Or, do the changes merely disrupt the Navajo 
Nation's self-determined progress in better educating its 
children and better training its educators?
    Based on the implementation thus far, the Navajo Nation 
says yes to both questions. The changes do help, but they also 
disrupt. A balance must be reached between both. The Navajo 
Nation encourages flexibility in the implementation of the No 
Child Left Behind Act. The Navajo Nation is in the best 
situation to embrace the changes that help the Navajo Nation 
better educate its children and better train its educators, 
while at the same time have the ability to refrain from 
implementing certain changes that disrupt the Navajo Nation's 
self-determined progress in better educating the Navajo 
children and better training for its educators.
    The Navajo Nation, along with other nations, only wants to 
be able to provide the best education for its children and to 
push our children to achieve higher standards, as recently 
recognized by the U.S. President in signing an Executive order 
on Indian Education. The President stated,

    We place a high value on education because we understand 
the importance of education to our future, and the importance 
of the education to tribal nations.

    It is really important that we get it right. The President 
also stated his vision was clear. On this day, April 30, 2004, 
the President agreed that we must make sure our visions are 
clear, starting at the Federal level. Therefore, the Navajo 
Nation agrees, especially in regards to the implementation of 
the No Child Left Behind Act. It must begin at the Federal 
level with Native input. We must get it right and our vision 
must be clear.
    The Navajo Nation would like to provide some comments on 
some specific areas of the No Child Left Behind Act, starting 
with the initial testing results. Navajo testing for the years 
2002-03 school years, in BIA-funded schools, 44 percent met 
AYP. In the New Mexico public schools, where there is a large 
percentage of Navajo students attending, 55 percent met AYP. In 
Arizona public schools, 45 percent met AYP.
    Over one-half of the schools are already in school 
improvement, corrective action or restructuring. This number is 
expected to increase as the proficiency bar continues to rise 
over the next few years. There is a narrow scope of testing in 
the No Child Left Behind Act. It only tests in three subject 
areas: Reading, math, and science. While these subjects are 
important, the No Child Left Behind Act excludes tests given to 
students who may be excelling in other areas such as music, 
art, or Navajo language.
    As the committee here is well aware, not only the Navajo 
Nation but all Natives prioritize retention of their Native 
languages. As you know, no credit is received for such 
achievement under the No Child Left Behind Act. The No Child 
Left Behind Act tempts schools to focus on areas where the 
statute requires testing and causes them to de-emphasize or 
eliminate programs that many students are involved with and 
excelling.
    The focus on testing concerning No Child Left Behind, the 
continued focus, if not the heightened focus on test results, 
has had predictable results. In many cases, teachers are 
increasing homework, expanding drill times on what some may say 
is teaching to the test. This merely encourages implementing 
methods that were not working before. The Navajo Nation is 
aware that the children are very diverse. Some excel in math 
and science, while others excel in arts and physical science.
    The Navajo Nation merely requests the flexibility to foster 
the excellent in those children according to their talents and 
skills. Thus far, the Navajo Nation has seen very little 
flexibility in the No Child Left Behind Act. There is not a lot 
of data or scientifically based curriculum concerning what 
works for Navajo children. That which does exist suggests that 
the most successful curriculum are those that are oriented in 
the Navajo culture.
    Many schools will discard this information or not have 
access to it, and simply pick programs that have found their 
way onto the approved list at the state or national level. 
Schools that have a large Native American population must have 
the flexibility and opportunity to develop and implement 
culturally based curricula. There is also a need for specific 
research funded to evaluate its effectiveness. On Navajo, we 
have the beginning of such research under the Navajo Nation's 
Rural Systemic Initiative program, but the funding for this 
program is being cut this year.
    There is a large gap in proficiency. The goal of full 
proficiency within the 12-year period is far more realistic in 
schools where students are already testing at a high level of 
proficiency than those where proficiency levels are very low. 
The No Child Left Behind Act might still label certain schools 
that need improvement, while other schools may be achieving 
high standards and doing an extraordinary job. If we may 
provide an analogy, sir, the No Child Left Behind Act is like a 
track and field event, with several events, but the primary 
focus is on three races. In these three races, the fastest 
runners are given a huge lead, but the slowest runners are 
required to catch up by the end of the race.
    Even with the best intentions of the No Child Left Behind 
Act, the danger is that the students who could not compete with 
the faster runners, although still finishing the race, will 
still be labeled as failing. The No Child Left Behind Act must 
require gains in student achievement with recognition that 
every student is an individual and with his or her own talents 
and interests. Testing should be used to identify a student's 
aptitude and provide guidance for the future direction of his 
or her education.
    Schools need to provide more options as the needs of the 
Navajo Nation and the surrounding society expands. Further, 
there is an isolation factor that is not addressed in the No 
Child Left Behind Act. Essential assistance provided under the 
act is simply not available, or is greatly reduced in isolated 
areas. There are few tutors available, and not a very large 
pool of professional educators, no involved business community, 
and little expert technical assistance available on an 
economical basis. Such factors make it imperative that the act 
receive full funding and provide a mechanism for isolated areas 
such as the Navajo Nation to access the central assistance.
    Also, there is another area as far as this reference is 
concerned regarding school boards and parent training. The 
Navajo Nation will have an election in November that includes 
school boards of Bureau-funded schools. We expect a large 
turnover in school board membership, probably about 80 percent. 
These new members will take office during a period when the 
knowledge required of school board members is at an all-time 
high, but there is no provision in the law for providing 
training expense. The committee should revisit the school board 
and parent training situation, especially for BIA-operated 
schools where there are no administrative cost grants to pay 
for training expenses.
    Finally, the No Child Left Behind Act has enhanced the 
Navajo Nation in its process of assuming responsibility and 
authority over educational programs on Navajo, beginning with 
the BIA schools. The Nation is pursuing contracts with the 
Bureau's Office of Indian Education Programs, which will 
include functions and dollars for providing technical 
assistance and training to school personnel, school boards and 
parents, and redesign the program to include regulatory 
functions such as establishing standards, accrediting schools, 
data collection and analysis, and also licensing teachers. The 
Navajo Nation plans to take full advantage of this opportunity 
in order to make a positive difference in the educational 
programs on Navajo.
    The Navajo Nation is aware that this is a large undertaking 
and there is the need for additional resources to plan and 
jump-start our educational system. The Congress previously 
funded another tribe on a one-time basis and we understand that 
this program proved to be quite successful. We recommend this 
committee consider and discuss this option with the Navajo 
Nation, and the Navajo Nation looks toward this committee for 
assistance in requesting specific funding for the tribal 
education department line item in the BIA budget.
    Mr. Chairman, members of the committee, again thank you 
very much for the opportunity to express our concerns.
    [Prepared statement of Mr. Leonard appears in appendix.]
    The Chairman. Thank you.
    Let me ask each of you a couple of questions. Mr. Leonard, 
let me start with you. You mentioned that there are no training 
expenses for new school board members included in the act. What 
did you do before the act?
    Mr. Leonard. Before the act, I think there was money 
allowed in other public laws that provided some.
    The Chairman. With the implementation of this act, did it 
delete the funding that you might have gotten from other 
sources that you had relied on before for training for school 
board members?
    Mr. Leonard. I believe it has.
    The Chairman. Frankly, I do not think it did, but we will 
try to look into that, but you might also. I think that there 
were resources available before to help train new school board 
members. I do not know of anything in this Act that would.
    Mr. Leonard. Through the public laws? Through the other 
public laws? Yes, there is; there remains to be.
    The Chairman. You think there still is.
    Mr. Leonard. I think there still is, yes.
    The Chairman. But the No Child Left Behind Act, I do not 
think it addresses that.
    Mr. Leonard. It does not address that.
    The Chairman. It does not address that, but it did not 
delete any other kinds of funding that was already in place 
either, to my knowledge.
    Anyway, let's go on. You said in one of your comments, the 
No Child Left Behind Act excludes testing on other subjects 
outside core subjects like math, science and reading, such as 
testing on tribal languages. How would you implement that from 
a Federal standpoint? How would you make mandates and 
accountability on those subject?
    First of all, I have to tell you, I do not think, and maybe 
I am reading it wrong, one of us is probably reading it wrong 
anyway, the No Child Left Behind Act puts certain standards, 
but it does not say that you cannot implement some of your own 
standards through local school board action. So if nothing 
requires testing in non-core activities like music, science, 
language, and so on, to my knowledge you can still do that 
through your own directives from your school board. Am I 
reading it wrong or are you reading it wrong?
    Mr. Leonard. No; I think we are both right in part. I use 
that example of behind you, there is a Navajo rug, there is 
tremendous imagine and vision that went into that. However, if 
you applied it at school, at this time No Child Left Behind 
does not give credit for that. I think that is the implication.
    The Chairman. I would encourage you to pursue that, because 
some of the things that are not in the Act, they may not be 
specified in the act, but it does not say you cannot. So I 
think a lot of things you can do on your own for your local 
school board action.
    Your testimony indicated also that research funding has 
been cut for the Navajo Nation rural systematic initiative 
program for culturally based curriculum. Was that funding cut 
as a result of the No Child Left Behind Act? I guess it is 
similar to the question I just asked 1 minute ago.
    Mr. Leonard. No, sir; that initiative was started 5 years 
ago, in 1998. There was funding through the National Science 
Foundation. It ends on September 30.
    The Chairman. I see. So it really did not have anything to 
do with the No Child Left Behind Act. In your testimony, you 
stated that the Navajo are pursuing contracts with the Office 
of Indian Education Programs. What is the status of those 
contracts?
    Mr. Leonard. At this point in time, the BIA Office of 
Indian Education program had talked about realignment. The 
Navajo Nation had opposed the realignment. So we want to be 
involved in the realigning process, and so our intentions are 
to contract some of the functions at the Albuquerque BIA Office 
level. At least right now, we are looking at what percentage of 
the function is geared toward the Navajo area office. So that 
is the first thing. We asked for some information. We have yet 
to receive that information. It has been about 1\1/2\ months 
now.
    The Chairman. In the Navajo schools, do you have Native 
language programs?
    Mr. Leonard. In most schools, we do. We have been very 
effective in that area, as tests show.
    The Chairman. Kids are getting pretty proficient at it?
    Mr. Leonard. Definitely. Yes, sir.
    The Chairman. I certainly commend you for that. I think it 
is really important. Once the languages are gone, it is not the 
same as listening to a tape that an elder made before he passed 
away, and being able to spend time with the elder themselves.
    Mr. Ben, to increase funding, we have to certainly have 
some data. I am the first one to admit that we have not done a 
real good job at funding Indian education. We have so many 
youngsters, frankly, I know some tribes where one-fourth of the 
whole tribe is under 18 years old. That is how fast our birth 
rate is. So we are always behind the curve when we try to 
provide the resources through our appropriations process here 
in Washington.
    Now the GAO did a study, but could not assess education 
funding in part because the BIA did not have any tribal data. 
Is that your understanding too?
    Mr. Ben. That is my understanding.
    The Chairman. Do you do any independent tracking that you 
could partner with the Bureau in providing some of the 
information that they have not done?
    Mr. Ben. It states in the proposal that if directed at some 
point, we will be glad to do that. We have some data internally 
that we keep track based on expenditures that we have tracked 
all these years.
    The Chairman. I think that could be important.
    Unfortunately around here, a lot of times the agencies 
testify and then they leave. They do not wait and hear the 
testimony of the other people that might have something to 
offer or have a different opinion.
    Mr. Ben. We would love to take it on. Let's put it that 
way. We would love to take that project on.
    The Chairman. Okay, good.
    We pass a bill and the President signs it into law, and 
then there are standards and there are rules made in the 
agencies, as you probably know. During that process when they 
were developing standards, did your schools or your tribe have 
any involvement in helping draft the new implementing 
regulations?
    Mr. Ben. There was a process, what they call a negotiated 
rulemaking.
    The Chairman. Did it work for you?
    Mr. Ben. Yes; it is working, the accountability portion and 
all these other things I mentioned today are working.
    The Chairman. Good. I am glad to hear that.
    I do have a few further questions that I will submit in 
writing. Other members may also do the same. We certainly 
appreciate your being here. We will keep the record open 2 
weeks for any additional comments you may have or anybody in 
the audience that may have, too.
    Thank you for attending. This committee is adjourned.
    [Whereupon, at 1:10 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of Dave Anderson, Assistant Secretary for Indian 
                  Affairs, Department of the Interior

    Good morning, Mr. Chairman and members of the committee. I am 
pleased to be here today to speak on behalf of the Department of the 
Interior about the Department's efforts to implement the No Child Left 
Behind Act in its Bureau-funded school system. The Bureau operates, 
either directly or through tribal grants and contracts, 184 elementary 
and secondary schools [and peripheral dormitories] in 23 States.
    On November 19, 2001, George W. Bush stated that, ``Indian 
education programs will remain a priority, so that no American child, 
including no Native American child, is left behind.'' President Bush 
and Secretary Norton are committed to ensuring that the almost 48,000 
Indian students attending Bureau-funded elementary and secondary 
schools receive high-quality educational opportunities and the 
opportunity to achieve. In fact, the President recently signed an 
Executive order on American Indian and Alaska Native Education with the 
purpose of assisting American Indian and Alaska Native students in 
achieving the academic standards established by the No Child Left 
Behind Act [NCLB]. The Department is committed to working with the 
Department of Education to implement this important Executive order.
    As Assistant Secretary--Indian Affairs, I have made Indian 
education a top priority. It is my strong belief that the most valuable 
asset of our future is our Indian youth. In the last few months, I have 
visited a number of Bureau-funded schools. What has become evident to 
me is the need to establish environments where students are encouraged 
to excel personally and academically.
    I believe that the high rates of school drop-out, teen suicides, 
substance abuse, and unemployment that exist on many of our 
reservations are directly caused by young people growing up without a 
strong sense of ``HOPE.'' They don't believe that they have the 
opportunity to succeed. Success, achievement and accomplishment are not 
part of their vocabulary.
    I believe that NCLB creates an incredible opportunity for the 
Bureau and the Indian community to partner and create positive learning 
environments that will empower our native youth. Our native youth need 
to realize that the American Dream has been made available to them. The 
American Dream of pursuing your ``life's passion'' and experiencing 
achievement and success is available to everyone in this great Nation.
    While some may believe that the NCLB is too rigorous, I believe 
that the human mind, body and spirit were meant to be challenged. Some 
of our native youth have been allowed to just ``squeak'' by because 
they have not been held to challenging standards. It is now time that 
we recognize that all of our children can learn and should be 
challenged to fulfill their greatest potential.
    To aid in implementing the NCLB in the Bureau-funded school system, 
I am exploring two important concepts that I hope will provide sweeping 
change in the way we view Indian education at the Department. First, it 
is my vision that every Bureau-funded school should incorporate a 
``Success 101'' curriculum into the classroom to encourage student 
achievement, leadership, business investment, homeownership, and 
personal responsibility. Second, I have asked my staff to develop a 
pilot program to work in partnership with a Bureau-funded school to 
transform its mission into a Leadership Academy. A Leadership Academy 
will transform the mission of a school to one of personal and academic 
excellence. We hope to weave both the core academic curriculum with the 
personal achievement needs of students by teaching success strategies, 
teamworking skills, effective leadership and communications, and other 
important life skills. The BIA hopes to establish partnerships with 
tribal school, communities and parents to help bring this concept into 
the bureau-funded schools.
    I have asked my staff to develop a Success 101 curriculum and a 
Leadership Academy pilot program. We are currently analyzing how best 
to implement these two programs within available funding and our 
current authority. During the months of July and August, the OIEP will 
consult with tribal leaders, educators, and community members on 
incorporating Success 101 and Leadership Academies into the Bureau-
funded school system. My goal is to turn the Bureau-funded school 
system away from the perception that they are ``schools of second 
choice'' toward the concept of that they are ``schools of first choice: 
of leadership and achievement.''
    Since 2001 the Administration has made a substantial investment to 
provide students and teachers in BIA schools with a safe physical 
environment in which to learn and grow. A pre-requisite to providing a 
high-quality education is safe and structurally sound schools. With 
this in mind, the President has requested and secured funding to 
replace, rehabilitate, or repair deteriorating schools. In fact, during 
the President's term he has requested $1.1 billion in funding for the 
school construction program. We are moving forward with the funding 
provided and we are optimistic that we will have several schools 
completed within 1 year.
    The Bureau-funded school system is striving to be a leader in 
building energy-efficient schools. On April 20, 2004, the U.S. Green 
Building Council awarded the BIA and the Baca/Dlo'ay azhi Community 
School Project [Prewitt, New Mexico] with the Leadership in Energy and 
Environmental Design [LEED] designation. The Baca/Dlo'ay azhi Community 
School was the first LEED certified building in the State of New 
Mexico, and the Bureau of Indian Affairs. The design, construction and 
operation of this building should minimize long-term negative 
environmental effects and energy demands. Several sustainable design 
features, in addition to Navajo cultural elements, are incorporated 
into the innovative design of the school. A number of other 
replacement-school construction projects are also being considered for 
LEED certification.
    While not specifically covered by NCLB, the Bureau has implemented 
an early childhood education program, named the Family and Child 
Education (FACE) program. The FACE program promotes family literacy by 
directly serving Indian children from birth through grade three, 
encouraging parental involvement in their child's academic experiences, 
developing school readiness skills, and strengthening the family 
community-school relationship. Approximately 2,300 children, 2,240 
adults and 1,800 families are served each year through the FACE 
program. The four components of the FACE program include: Early 
childhood education, parent and child time, parenting skills and adult 
education. These program components are provided in the home and school 
setting. Under this Administration, the FACE program for Indian 
children and families has been expanded from 32 to 39 sites. The BIA is 
in the process of instituting an independent review to assess the 
program. The Administration's budget request contains $12.5 million for 
this program and study.
    The Department is committed to improving Indian education and 
ensuring that no Indian child is left behind. The NCLB is the 
President's commitment that all public schools will provide students 
with a high-quality education, and Bureau-funded students and parents 
can expect that our schools also will carry forward that vision. Full 
and successful implementation of the NCLB will require a strong 
partnership between the Department and every Bureau-funded school and 
its community.
    The NCLB required the Department to undertake formal negotiated 
rulemaking for nine specific areas as discussed below. Upon completion 
and publication of these final regulations, the Bureau-funded school 
system will fully implement the President's goal of increased 
accountability for improved student achievement. In August of 2004, the 
Department will consult with tribal leaders, educators, and community 
members regarding the remaining area to be negotiated as required by 
the NCLB: School construction.
    The NCLB negotiated-rulemaking process provided both the Department 
and the tribal community a valuable opportunity to reassess our 
education system. The results are a thoughtful work product that 
encourages accountability to aid the Bureau in fulfilling its charge to 
provide a meaningful educational opportunity for the young people whom 
we serve.
    On February 20, 2004, the first six draft regulations were 
published. These regulations were developed in 5 months through a 
process in which the Federal Government sat at the table and negotiated 
with Indian tribal leaders and Indian education professionals to 
develop proposed regulations to implement the NCLB. These proposed 
regulations were developed through ``consensus'' decisionmaking in 
which all 25 Federal and tribal committee members agreed to the final 
negotiated product. The rulemaking committee reached consensus on the 
following six areas: (1) Definition of Adequate Yearly Progress, (2) 
Geographic Boundaries, (3) Allotment Formula, (4) Student Civil Rights, 
(5) Grants Administration under the Tribally Controlled Schools Grants 
Act, and (6) Funding Distribution. The public comment period on these 
proposed regulations ends on June 24, 2004.
    During February 2-7, 2004, the committee reconvened and negotiated 
two additional areas required under NCLB: (1) Closure or Consolidation 
of Schools, and (2) National Criteria for Home-Living Situations. 
Although consensus was reached by the committee in the area of home-
living standards, consensus was not reached by the committee in the 
area of school closure or consolidation of schools because the Federal 
and tribal committee members had differing legal interpretations of 
section 1121(d) of the Education Amendments of 1978, as amended by the 
No Child Left Behind Act. After much thoughtful deliberation, it became 
clear that consensus could not be reached on the issue of whether the 
Secretary could, without the approval of the tribal governing body, 
close, consolidate, or substantially curtail a school pursuant to the 
regulations promulgated under section 1121 (d).
    The Department is finalizing the proposed regulations for both the 
school closure and home-living standards, and we hope to publish these 
proposed regulations in the Federal Register in the near future. 
Following the publication of these proposed regulations, the public 
will have 120 days to comment. The Department will then review any 
comments provided.
    We strongly encourage all tribal communities that are concerned 
with the issue of school closure and consolidation to provide comments 
during the 120-day public comment period. This public comment period is 
invaluable in assisting the Department in fulfilling both the letter 
and the intent of the NCLB.
    The President's budget supports implementation of NCLB in the 
bureau-funded school system. The Bureau-funded school system has 
received significant increases in flow-through funding from the 
Department of Education to aid in the implementation of the NCLB.
    In fact, the President's fiscal year 2005 budget request for the 
Department of the Interior includes a $500,000-increase for the FOCUS 
program. The FOCUS program provides targeted assistance to the lowest-
performing Bureau-funded schools. The purpose of this funding is to 
provide technical assistance and raise the level of instruction in 
these schools to encourage greater student proficiency on challenging 
academic standards and assessments. The FOCUS program has demonstrated 
improved student achievement with four of the five past participants, 
and, in fact, after the first year one school raised its student 
academic proficiency levels by over 20 percent with the help of the 
FOCUS program.
    Another success the Department has had in implementing the NCLB was 
passing the Department of Education's rigorous review of OIEP's 
application to receive Reading First grant money. In November 2003, the 
OIEP was awarded a $30.4-million, 6-year Reading First grant from the 
Department of Education. The purpose of the Reading First program is to 
improve reading achievement through scientifically based reading 
research for grades K-3 by promoting teacher development and 
instructional strategies that focus on phonemic awareness, phonics, 
fluency, vocabulary, and text comprehension. In March 2004, the OIEP 
awarded its first 22 sub-grants to eligible schools and will be 
awarding two more grants in July 2004. We are excited about the 
opportunities that this Reading First Grant will open in our Bureau-
funded school system.
    Thank you for the opportunity to be here today to testify on this 
important issue. I would be happy to answer any questions that you 
have.

[GRAPHIC] [TIFF OMITTED] T4491.001

[GRAPHIC] [TIFF OMITTED] T4491.002

[GRAPHIC] [TIFF OMITTED] T4491.003

[GRAPHIC] [TIFF OMITTED] T4491.004

[GRAPHIC] [TIFF OMITTED] T4491.005

[GRAPHIC] [TIFF OMITTED] T4491.006

[GRAPHIC] [TIFF OMITTED] T4491.007

[GRAPHIC] [TIFF OMITTED] T4491.008

[GRAPHIC] [TIFF OMITTED] T4491.009

[GRAPHIC] [TIFF OMITTED] T4491.010

[GRAPHIC] [TIFF OMITTED] T4491.011

[GRAPHIC] [TIFF OMITTED] T4491.012

[GRAPHIC] [TIFF OMITTED] T4491.013

[GRAPHIC] [TIFF OMITTED] T4491.014

[GRAPHIC] [TIFF OMITTED] T4491.015

[GRAPHIC] [TIFF OMITTED] T4491.016

[GRAPHIC] [TIFF OMITTED] T4491.017

[GRAPHIC] [TIFF OMITTED] T4491.018

[GRAPHIC] [TIFF OMITTED] T4491.019

[GRAPHIC] [TIFF OMITTED] T4491.020

[GRAPHIC] [TIFF OMITTED] T4491.021

[GRAPHIC] [TIFF OMITTED] T4491.022

[GRAPHIC] [TIFF OMITTED] T4491.023

[GRAPHIC] [TIFF OMITTED] T4491.024

[GRAPHIC] [TIFF OMITTED] T4491.025

[GRAPHIC] [TIFF OMITTED] T4491.026

[GRAPHIC] [TIFF OMITTED] T4491.027

[GRAPHIC] [TIFF OMITTED] T4491.028

[GRAPHIC] [TIFF OMITTED] T4491.029

[GRAPHIC] [TIFF OMITTED] T4491.030

[GRAPHIC] [TIFF OMITTED] T4491.031

[GRAPHIC] [TIFF OMITTED] T4491.032

[GRAPHIC] [TIFF OMITTED] T4491.033

[GRAPHIC] [TIFF OMITTED] T4491.034

Prepared Statement of Phillip Martin, Tribal Chief Mississippi Band of 
                            Choctaw Indians

    Mr. Chairman and Vice Chairman, I appreciate the opportunity to 
address your committee this morning concerning the No Child Left Behind 
Act of 2001.
    My name is Phillip Martin, tribal chief of the Mississippi Band of 
Choctaw Indians. Accompanying me today, is Terry Ben, director of 
Choctaw Tribal Schools.
    The Mississippi Band of Choctaw Indians operates the largest 
consolidated tribal school system in the Nation. This school system 
consists of eight schools, including a boarding high school, located in 
six different tribal communities spread over three counties and 
contains about 1,800 students.
    Being part of one of the two school systems (BIA and DOD) over 
which the Federal Government exercises direct responsibility, the 
Mississippi Band of Choctaw Indians welcomes any Federal initiative 
that is designed to improve the performance of our schools and 
contribute to the academic success of our children. The intellectual 
stimulation and preparation of our children is essential if they are to 
be successful in a competitive 21st Century workforce.
    I was pleased to attend the signing of the President's executive 
order on Indian education on April 30 of this year. The President 
recognized the unique legal and moral relationship that exists between 
the United States and Indian tribes as provided in the Constitution of 
the United States, treaties, and Federal statutes. We welcome the 
commitment of this Administration to continue working with tribal 
governments on a government-to-government basis, its support of tribal 
sovereignty and self determination, and its promise to assist our 
students in meeting the No Child Left Behind Act standards in a manner 
that is consistent with tribal traditions, languages, and cultures.
    The primary goal of the No Child Left Behind Act was to create a 
standard measure of accountability for public schools in each State 
with the State's share of Federal funding tied to the performance of 
its schools, generally measured by a state testing plan.
    In Indian country, it was assumed that the BIA was to act as the 
State and develop the accountability and testing plan. The agency 
failed to do so claiming a lack of funding to carryout such an 
activity. Neither states nor tribes are able to use such an excuse. We 
would actually lose current Federal funding if we failed to implement 
the act.
    As a result, it was determined that tribal schools should adopt the 
State plan of the state in which the tribe is located with the ability 
to apply for certain waivers when necessary. This application of the 
act is in fact acceptable to the Mississippi Choctaw and is workable 
due to the fact that we have strived for at least parity with local 
public schools and we believe that we have largely succeeded.
    As a result, we fully support the goals of the No Child Left Behind 
Act. However, the act has not solved any of our educational problems 
and it has certainly not dealt with funding issues. The act will allow 
us to measure our children's educational performance against other 
children in our state but it provides no funding to support improved 
performance. In fact, it threatens a portion of our funding if we fail 
to ``measure up'' to the state standard at the same time the existing 
level of Federal funding is inadequate to allow us to so measure up.
    Fortunately, the Mississippi Band of Choctaw Indians has for more 
than a decade been able to heavily supplement our schools' finances. 
For fiscal year 2005, the tribe will provide almost $4.5 million of our 
schools total $30 million budget. And, over a period of time, we have 
invested some $35 million in construction and development of our 
educational infrastructure. We believe that we would have no hope of 
meeting the state standard if we relied solely on BIA funding. As such, 
the No Child Left Behind Act serves to further point out the inadequate 
funding levels for BIA education.
    There have been a number of studies conducted over the years of BIA 
schools. One thing that we have definitely learned is that education in 
BIA and tribal schools is expensive. The per capita cost of educating a 
student in our schools (BIA and tribal) is considerably higher than 
most other publicly funded schools. But the high cost of educating our 
children does not negate the Federal responsibility to do so nor should 
it reduce the financial commitment required to do so properly.
    There are reasons that education on Indian reservations is so 
expensive. In the case of the Mississippi Choctaw, for example, we had 
no schools at all until the 1920's and we did not have a high school 
until 1963. We have a bilingual population, historically high rates of 
poverty and low levels of educational attainment among our population. 
Hunger and a lack of health care was the norm on our reservation well 
into the 1970's and the high incidence of congenital diseases, such as 
diabetes, continues to plague all age levels of our community. When it 
comes to education, we started far behind the populations that we are 
now being compared to both on a performance basis and in terms of 
funding.
    Additionally, the size of our school system and the fact that it is 
spread over three counties affects our costs. The need for 
prekindergarten and after-school programs to accommodate parents 
working at a distance from their communities and schools are also 
important factors to note.
    Even so, our children are beginning to measure up. We have advanced 
rapidly not because of Federal initiative but because our tribal 
government has taken up the slack, not just with the provision of 
tribal funds as previously noted, but also through direct tribal 
administration of our schools.
    We are concerned that No Child Left Behind may be used to compare 
our children to other populations without accounting for these factors. 
The disproportionate socio-economic handicaps that tribal children and 
tribal school systems have had to face must be a part of the equation 
when examining performance and funding.
    We need the increased financial support promised by this 
reauthorization of the Elementary and Secondary Education Act. We also 
share the concern of the tribal representatives of the negotiated 
rulemaking team that the ISEP funding for our schools is totally 
inadequate and not based on the level of need rulemaking team was 
tasked to develop a formula to equitably distribute inadequate funds. 
BIA funded schools do not have adequate financial support for academic 
instruction, transportation, or dormitories. As mentioned in a 
September 2003 GAO report, BIA funded schools must routinely supplement 
transportation funds from the academic programs. In addition, we need 
Federal funding for pre-kindergarten in all elementary schools.
    We ask that this committee direct the BIA to follow the 
recommendations of the September 2003 GAO report by working with the 
National Center for Education Statistics to develop a user friendly 
data collection instrument to collect instructional, transportation, 
and residential cost data. Once developed the Mississippi Band of 
Choctaw Indians would be willing to have our schools field test this 
instrument. If we found it to be a good product, we would urge all 
tribally operated schools to participate in the data gathering effort. 
This would provide valuable information to assess the adequacy of 
future BIA school funding.
    Congress wisely enacted the Native American Language Act. However 
the act does not include any funding. Since the act does not authorize 
funding, the rulemaking committee has recommended that the funds 
available for bilingual education be used for language restoration as 
well as for limited English proficient students. We support this 
change, but would prefer the committee revise the Native American 
Languages act to authorize funding. If our languages are lost, so are 
our cultures and traditions. However, our students must also master the 
English language. We believe that our students can master both 
languages at a high level if they are provided appropriate resources.
    The rulemaking committee proposes that we use the State of 
Mississippi accountability plan. We believe that Choctaw Students can 
and will perform well under this plan.
    We have actively recruited highly qualified educators. We have also 
implemented staff development opportunities and incentives for our 
educators to improve their skills. We are accomplishing this at a 
significant financial cost to the tribe, but we must insure success for 
our students. We need appropriate and promised funding to continue our 
improvements.
    We understand that the negotiated rulemaking team has been unable 
to reach consensus on a regulation regarding Secretarial authority to 
close or curtail programs at a BIA-funded school. Of course such action 
should only be made with tribal approval, otherwise such a move would 
contradict the law and be in direct conflict with tribal sovereignty 
and Indian self-determination rights. The President's Executive order 
signed on April 30 makes this clear and we trust that the Secretary 
will not allow such a potential conflict to exist in regulation.
    In closing, I again state that we support the goals of the No Child 
Left Behind Act and that its implementation is not unduly burdensome 
for our tribe. However, it does not deal with funding inadequacies nor 
does it address the broader socio-economic issues that we as a tribe 
must address. Job development and improved economic attainment are the 
keys to raising our socio-economic success. We can not adequately deal 
with those issues when our tribal resources have to be spent on 
education, health care, law enforcement, all programs for which the BIA 
is responsible.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T4491.035
    
    [GRAPHIC] [TIFF OMITTED] T4491.036
    
    [GRAPHIC] [TIFF OMITTED] T4491.037
    
    [GRAPHIC] [TIFF OMITTED] T4491.038
    
    [GRAPHIC] [TIFF OMITTED] T4491.039
    
    [GRAPHIC] [TIFF OMITTED] T4491.040
    
Prepared Statement of Victoria Vasques, Deputy Under Secretary, Office 
              of Indian Education, Department of Education

    Mr. Chairman and members of the committee:
    On behalf of Secretary Paige, thank you for this opportunity to 
testify on the implementation of the No Child Left Behind Act [NCLB] 
for American Indian and Alaska Native children. My name is Victoria 
Vasques, and I am the Deputy Under Secretary and Director of the Office 
of Indian Education [OIE]. I am here with my colleague, Darla 
Marburger, the Deputy Assistant Secretary for Policy in the Office of 
Elementary and Secondary Education.
    It was, in large part, our Nation's long and unfortunate history of 
too often ignoring the educational needs of some children that led 
President Bush to propose his No Child Left Behind reforms. Ignoring 
these students is no longer an option for States, school districts, and 
schools, because under NCLB, they are responsible for ensuring that 
Indian and Alaska Native children meet the same challenging academic 
standards that other children are expected to meet.
    We also know, however, that there are implementation challenges and 
that a one-size-fits-all approach will not work. There are challenges 
in areas such as providing school choice for children who live in 
remote and rural areas, assisting schools in meeting requirements that 
they employ highly qualified teachers, and determining how native 
language immersion programs for students in grades K-3 affect 
assessment requirements that begin in the third grade. However, we are 
committed to working in consultation with all local, State, and tribal 
governments to provide flexibility where possible while ensuring that 
this and future generations of Indian students are not left behind. 
Working with each of you on this committee, the Department wants to 
build upon the special relationship between the Federal Government and 
American Indians and our shared commitment to educational excellence 
and opportunity.
    The President recognized the unique cultural and educational needs 
of these children in his April 30 Executive order on American Indian 
and Alaska Native Education. In particular, the Executive order 
emphasizes the importance of helping American Indian and Alaska Native 
students meet the challenging academic standards of the NCLB Act ``in a 
manner that is consistent with tribal traditions, languages, and 
cultures.'' We believe, in fact, that the No Child Left Behind Act, 
which combines greater accountability for results with flexibility for 
local school districts and more choices for parents, provides an 
excellent framework for meeting the goals of the Executive order for 
the nearly 500,000 American Indian and Alaska Native students in our 
public schools.
    Another important event occurring on April 30th was the swearing in 
of the National Advisory Council on Indian Education. Council members 
were appointed by the President and will advise Secretary Paige on the 
funding and administration of all Departmental programs that benefit 
Indian children or adults.
    According to the most recent data from the National Assessment of 
Educational Progress [NAEP], only 16 percent of American Indian and 
Alaska Native fourth-graders score at or above the proficient level in 
reading, compared to 41 percent of white students and 31 percent of all 
students. By the time Indian students reach eighth grade, only 15 
percent are proficient in math and only 17 percent are proficient in 
reading. After falling so far behind in the early years, it is not 
surprising that Indian students scored 100 points below white students 
and 60 points below the general population on the 2001 SAT.
    Under NCLB, States must ensure that all students, including 
American Indians and Alaska Natives, are proficient in reading and 
mathematics-as measured against State standards-by the 2013-14 school 
year. We know this won't happen overnight, so-the law requires each 
State as well as the Bureau of Indian Affairs [BIA] to develop 
accountability plans for reaching this goal. The plans are based on 
academic standards for these core subjects, as well as annual 
assessments based on those standards for all students in grades three 
through eight and once again in high school. They also include annual 
objectives for improving student performance on those assessments-part 
of the concept known as adequate yearly progress [AYP].
    A key advance in the new law is the incorporation of subgroup 
accountability into AYP standards. This means that the performance of 
schools and school districts is based not just on overall student 
achievement-which can mask significant gaps between groups of students-
but also on the progress of major racial and ethnic subgroups. The 
result is a system that will hold the BIA, States, school districts, 
and schools specifically accountable for improving the academic 
achievement of American Indian and Alaska Native students.
    All 50 States, Puerto Rico, and the District of Columbia have 
developed, and are currently implementing, NCLB accountability plans, 
which--include both a system of rewards for schools that perform well 
and a system of interventions for schools and districts that are not 
meeting their goals. These accountability plans are critical to 
improving the education of American Indian and Alaska Native students 
because more than 90 percent of these students are enrolled in public 
schools operated by public school districts, which are held accountable 
by the States in which they are located. We are confident that the new 
subgroup accountability requirements, coupled with significant 
increases in funding for programs under the NCLB Act, will help close 
the achievement gaps. We have no doubt that American Indian and Alaska 
Native students will benefit considerably from the $3.6 billion, or 41 
percent, increase in title I Grants to Local Educational Agencies 
funding since the passage of the NCLB Act in 2001. In addition, the 
National Activities program carried out by my office supports much-
needed research and data- collection on the performance of Indian 
students and will promote ongoing program improvement for Indian 
education programs.
    Although most American Indian and Alaska Native students are served 
by public schools, I know this committee has a special interest in the 
BIA-funded schools that serve about 48,000, or some 9 percent, of 
American Indian students. Under the NCLB Act, total Department funding 
for schools operated or funded by the BIA has grown to nearly $131 
million, an increase of more than $60 million or 85 percent since 
fiscal year 2001. In addition, the law requires that the Departments of 
Education and the Interior enter into an agreement regarding the 
distribution and use of program funds under the Act. This agreement 
must be in place before the Department of Education can transfer funds 
to Interior. To this point, we have entered into interim annual 
agreements with the Department of the Interior to transfer these funds. 
We are working with Interior to come up with a long-term agreement that 
will ensure the timely and effective dispersal of NCLB funding to the 
BIA schools during the remaining years of the current authorization.
    Finally, we note that, over the past 2 years, the BIA has worked 
diligently to establish the regulations required for implementing 
various provisions of NCLB, including accountability measures.
    In addition to the title I program, the Department of Education 
provides other significant assistance to States and school districts 
that support improved achievement for American Indian and Alaska Native 
students. For example, last year, Secretary Paige announced a 6-year, 
$30.4 million Reading First grant to the BIA. This major initiative 
seeks to improve reading achievement using scientifically proven 
instructional methods for Indian children in kindergarten through third 
grade.
    Putting a highly qualified teacher in every classroom is also a 
critical concern for Indian students. Assistance is provided through 
such programs as Improving Teacher Quality State Grants, which is 
funded at $2.9 billion and includes a set-aside of $14.6 million for 
BIA schools in fiscal year 2004. The Department's OIE will award 
approximately $10 million to support the training of high-quality 
Indian education personnel through the Teacher Corps and Administrator 
Corps programs. These funds will be used to support the American Indian 
Teacher Corps, which trains Indian individuals at the bachelor's degree 
level or higher to meet full State teacher certification or licensure 
requirements. These funds will also be used to support the American 
Indian Administrator Corps to train Indian individuals at the master's 
degree level to become new school administrators with full State 
certification. Together, these programs have trained more than 1,000 
teachers and administrators to date.
    Our OIE awards about $96 million annually to help approximately 
1,200 rural and urban school districts and BIA-funded schools meet the 
educational and culturally related academic needs of their American 
Indian and Alaska Native students. OIE also awards about $10 million 
for projects that help Indian preschool children learn to read and 
Indian high school students make the transition from secondary to 
postsecondary education.
    The No Child Left Behind Act demands accountability for improving 
the achievement of all children, including all American Indian and 
Alaska Native students.
    We recognize that the NCLB Act set high standards, and that finding 
the right mix of accountability and flexibility can be a challenge. 
However, I am sure that the members of this committee would agree that 
few have more to gain from a concerted, good-faith effort than our 
American Indian and Alaska Native students as we continue to implement 
NCLB for their benefit and for the benefit of all our students.
    In closing, I ask you the same question the President asked when he 
signed the Executive order on American Indian and Alaska Native 
education, ``How can we work together to raise the standards and expect 
the best?''
    We will be happy to answer any questions you may have.

    [GRAPHIC] [TIFF OMITTED] T4491.041
    
    [GRAPHIC] [TIFF OMITTED] T4491.042
    
                                 <all>

</pre></body></html>
